                          DEPARTMENT OF HEALT H AND HUl\IIA"J SERVICES


                     OFFICE OF INSPECTOR GENERAL
                                             WASH!Nf;TON, DC 2020 1



                                             •JUL19 2013


TO: 	            Edwin L. Walker
                 Deputy Assistant Secretary for the Administration on Aging
                 Administration for Community Living
                         /S/
FROM:            Stuart Wright-
                 Deputy Inspector General
                   for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Performance Data for the Senior Medicare Patrol
           Projects: July 2013 Performance Report, OEI-02-13-00170


This memorandum report presents perfmmance data for the Senior Medicare Patrol (SMP)
projects. The Office oflnspector General (OIG) has collected these data since 1997. In
July 2010, the Administration on Aging (AoA), which is now part of the Administration for
Community Living (ACL), requested that OIG continue to collect and report performance
data for the projects to support its efforts to evaluate and improve their performance. OIG
currently reports this performance data on an annual basis.

SUMMARY

The SMP projects receive grants from ACL to recruit and train retired professionals and other
senior citizens to recognize and report instances or patterns of health care fraud. In 20 12, the
54 projects had 5,137 active volunteers, a 9-percent decrease from 2011. These volunteers
conducted 113,457 one-on-one counseling sessions and 14,748 group education sessions, a
71-percent and 33-percent increase from 2011, respectively.

In 2012, expected Medicare and Medicaid funds recovered that were attributable to the projects
were $6 million. 1 In addition, total savings to beneficiaries and others increased from $13 ,657 in
2011 to $133,977 in 2012. However, there was more than a 50-percent decrease in cost
avoidance on behalf of Medicare, Medicaid, beneficiaries, and others; the total for 2012 was
$113,692. Finally, one project provided information to Federal prosecutors for a case that
eventually resulted in a $12.9 million settlement.

1
 In 2012, the performance measures for both Medicare and Medicaid funds recovered attributable to the projects
were expanded to account for both expected and actual funds recovered.
Page 2 – Edwin L. Walker


We continue to emphasize that it is not always possible to track referrals to Medicare contractors
or law enforcement from beneficiaries who have learned to detect fraud, waste, and abuse from
the projects. Therefore, the projects may not be receiving full credit for savings attributable to
their work. In addition, the projects are unable to track the substantial savings derived from a
sentinel effect whereby fraud and errors are reduced by Medicare beneficiaries’ scrutiny of their
bills.

BACKGROUND

There is one SMP project in each of the 50 States and in the District of Columbia, Puerto Rico,
Guam, and the Virgin Islands. In 2012, funding for the projects totaled $20.1 million—
$9.4 million from AoA, and $10.7 million in Health Care Fraud and Abuse Control Program
(HCFAC) funding. Of the $10.7 million in HCFAC funding, $3.2 million was provided to
support infrastructure, technical assistance, and other SMP project activities, and $7.5 million
was designated for expanding the projects’ capacity to detect and prevent fraud. In 2010 and
2011, AoA also received HCFAC funds—$9 million each year—to expand the projects’
capacity.

Performance Measures
In 2007, AoA revised some of the performance measures to more accurately reflect the work of
the SMP projects. AoA developed the following performance measures, among others: number
of active volunteers, number of simple inquiries, and number of complex issues. Active
volunteers are individuals who are trained to assist with teaching beneficiaries how to detect
fraud, waste, and abuse in Medicare and other health care programs. Simple inquiries are
beneficiary inquiries that are quickly resolved with very little research or review. Complex
issues involve collecting more detailed information related to an issue or a complaint that may
warrant further action by an investigative agency, such as the reporting of potential fraud or
abuse by a provider.

Also in 2007, the projects were required to measure health care expenditures for which
Medicare, Medicaid, a beneficiary, or other entity (e.g., secondary health insurer, pharmacy) was
relieved of responsibility for payment as a result of the projects. This performance measure is
referred to as cost avoidance. For example, if a beneficiary discovers charges for services he or
she did not receive and a project, on behalf of the beneficiary, contacts the provider and receives
a corrected billing statement, the project may report this as cost avoidance.




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)
Page 3 – Edwin L. Walker

In 2012, the performance measures for both Medicare and Medicaid funds recovered attributable
to the projects were expanded to account for both expected and actual funds recovered. This is
consistent with how OIG reports recoveries.2

Tracking Systems
AoA uses a Web-based system named the Seniors Medicare Assistance and Reporting Tool for
Fraud and Complaint Tracking System (SMART FACTS). The SMP projects are required to use
SMART FACTS to track and report activities and complaints and to refer cases directly to an
investigative agency.

METHODOLOGY

We based this review on data reported by the SMP projects. In addition, we requested and
reviewed documentation from the projects for funds recovered for the Medicare and Medicaid
programs. We also requested and reviewed documentation for actual savings to beneficiaries
and others that were attributable to the projects, as well as for cost avoidance. We did not review
documentation for the other performance measures. The results for all of the performance
measures are presented in detail in the appendixes.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Results for 2012
In 2012, the 54 SMP projects had a total of 5,137 active volunteers. These volunteers conducted
113,457 one-on-one counseling sessions and 14,748 group education sessions. In total,
449,509 beneficiaries attended these group education sessions. The projects also reported
conducting 188,199 media airings, which could be any distribution of media (e.g., print, radio,
television, or electronic), to educate about fraud and the services of the project. Additionally, the
projects reported conducting 10,032 community outreach education events. As a result of these
training sessions and events, the projects received 84,061 simple inquiries. They also received
2,270 inquiries involving complex issues; 908 inquiries were referred for further action.
Expected Medicare and Medicaid funds recovered that were attributable to the projects were
$6 million, with actual Medicare and Medicaid funds recovered totaling $71,769. Savings to
beneficiaries and others totaled $133,977, and cost avoidance on behalf of Medicare, Medicaid,


2
  As required by the Inspector General Act of 1978 (P.L. 95-452), as amended, OIG reports semiannually to the head
of the U.S Department of Health and Human Services and the Congress on the activities of the office. In the
semiannual report, OIG reports expected—rather than actual—recoveries. See the most recent semiannual report at
https://oig.hhs.gov/reports-and-publications/semiannual/index.asp.

Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)
Page 4 – Edwin L. Walker

beneficiaries, and others was $113,692. Finally, one project provided information to Federal
prosecutors for a case that eventually resulted in a $12.9 million settlement.

Results Since 1997
Since the program’s inception 16 years ago, 72 SMP projects have reported performance data.3
In total, these projects reported conducting 1,292,647 one-on-one counseling sessions and
108,825 group education sessions. A total of 3,978,946 beneficiaries attended these group
education sessions. The projects also reported conducting 2,102,108 media airings and
93,894 community outreach education events. Total expected savings to Medicare and Medicaid
attributable to the projects were $105.4 million.4 Most of the savings resulted from one project’s
involvement in adjustments to Medicaid claims for individuals entitled to both Medicaid and
Medicare. In addition, total savings to beneficiaries, and other payers were approximately
$6.8 million. Finally, total cost avoidance on behalf of the Medicare, Medicaid, beneficiaries,
and others was $8.7 million.

Comparison With Results for 2011
Although the projects experienced a 9-percent decrease in active volunteers from 2011, they
were able to conduct significantly more one-on-one counseling and group education sessions.
Specifically, the projects conducted 113,457 one-on-one counseling sessions in 2012, compared
to 66,303 in 2011; they also conducted 14,748 group education sessions in 2012, compared to
11,109 in 2011. The number of beneficiaries that attended group education sessions increased
slightly, from 431,128 in 2011 to 449,509 in 2012. At the same time, the projects reported
conducting far fewer media airings in 2012—a total of 188,199, compared to 592,687 in 2011.

As previously noted, for this year’s report, we counted both expected and actual Medicare and
Medicaid funds recovered attributable to the projects. This accounts for the significant increase
in reported funds recovered when compared with prior years. In 2012, the projects reported
expected Medicare and Medicaid funds of $6 million, with actual Medicare funds recovered
totaling $71,769 in 2012, an increase from $19,283 in 2011. In addition, there was a significant
increase in total savings to beneficiaries and others, from $13,657 in 2011 to $133,971 in 2012.
However, there was more than a 50-percent decrease in cost avoidance on behalf of the
Medicare, Medicaid, beneficiaries, and others from $247,850 in 2011 to $113,692 in 2012.




3
  Seventeen of these projects had closed as of December 2008 and one project is now focused solely on providing 

support to the other projects.

4
  The project reported these savings between 2001 and 2003. Prior to 2007, OIG reviewed documentation on

savings to Medicare only and included self-reported data on savings to Medicaid, beneficiaries, and other entities. 


Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)
Page 5 – Edwin L. Walker

CONCLUSION

In 2012, the 54 SMP projects had 5,137 active volunteers, a 9-percent decrease from 2011.
These volunteers conducted 113,457 one-on-one counseling sessions and 14,748 group education
sessions, a 71-percent and 33-percent increase from 2011, respectively.

Also, expected Medicare and Medicaid funds recovered that were attributable to the projects
were $6 million in 2012.5 In addition, total savings to beneficiaries and others increased from
$13,657 in 2011 to $133,977 in 2012. However, there was more than a 50-percent decrease in
cost avoidance on behalf of Medicare, Medicaid, beneficiaries, and others; the total for 2012 was
$113,692. Finally, one project provided information to Federal prosecutors for a case that
eventually resulted in a $12.9 million settlement.

We continue to emphasize that it is not always possible to track referrals to Medicare contractors
or law enforcement from beneficiaries who have learned to detect fraud, waste, and abuse from
the projects. Therefore, the projects may not be receiving full credit for savings attributable to
their work. In addition, the projects are unable to track the substantial savings derived from a
sentinel effect whereby fraud and errors are reduced by Medicare beneficiaries’ scrutiny of their
bills.

As agreed, we will continue to monitor the projects and will provide ACL with annual summary
reports of performance data. This memorandum report is being issued directly in final form
because it contains no recommendations. If you have comments or questions about this
memorandum report, please provide them within 60 days. Please refer to report number
OEI-02-13-00170 in all correspondence.



cc: 	   Olen Clybourn, Deputy Director of the Office of Strategic Operations and Regulatory
        Affairs, CMS




5
 In 2012, the performance measures for both Medicare and Medicaid funds recovered attributable to the projects
were expanded to account for both expected and actual funds recovered.

Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)
                                    Results for Performance Measures 

                                  for the Senior Medicare Patrol Projects 


  List of Appendixes

  Appendix A: Summary of Overall Performance of Projects Since 1997………………………….………7 


  Appendix B: Summary of Overall Performance of Projects in 2012…………………….…….……...... ..9 


  Appendix C: Results for 2012, by Performance Measure……………...…………………...………...…...11


  Appendix D: Results for 2012, by Project……………………………………….………….….….......….33 


  Appendix E: Definitions of Performance Measures…………………………………..……...……….…..88





Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)   6
APPENDIX A

                             Summary of Overall Performance of Projects Since 1997
The following table provides a summary of the overall performance of all 72 Senior Medicare Patrol projects that have operated since
1997.

Performance measures labeled with an asterisk (*) are reported as of 2007.

For performance measure #15—“Number of complex issues pending further action”—the same issue can continue through numerous
reporting periods for a project. The number of issues is not a unique count; therefore, the data cannot be added to the number from
prior years.

Performance measures #17A and #17B, labeled with two asterisks (**), were changed to include actual and expected funds recovered
as of 2012. Prior to 2012, the measures only included actual funds recovered.




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                     7
                             Summary of Overall Performance of Projects Since 1997
                                                                                                             Total Since 1997
                                                         PERFORMANCE MEASURES
          1               Total number of active volunteers*                                                          35,239
          2               Total number of volunteer training hours*                                                  422,901
          3               Total number of volunteer work hours*                                                      882,588
          4               Number of media airings                                                                  2,102,108
          5               Number of community outreach education events conducted                                     93,894
          6               Estimated number of people reached by community outreach education events               27,983,205
          7               Number of group education sessions for beneficiaries                                       108,825
          8               Number of beneficiaries who attended group education sessions                            3,978,946
          9               Number of one-on-one counseling sessions held with or on behalf of a beneficiary         1,292,647
          10              Total number of simple inquiries received*                                                 421,229
          11              Total number of simple inquiries resolved*                                                 407,672
          12              Number of inquiries involving complex issues received*                                      31,355
          13A             Number of inquiries involving complex issues referred for further action*                    8,060
          13B             Total dollar amount referred for further action*                                       $42,004,967
          14              Number of complex issues resolved*                                                          15,344
          15              Number of complex issues pending further action*                                             8,979
          16              Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others*               $8,695,907
          17A             Expected Medicare funds recovered attributable to the projects**                       $10,597,031
          17B             Expected Medicaid funds recovered attributable to the projects**                       $94,758,920
          17C             Actual savings to beneficiaries attributable to the projects                            $3,376,217
          17D             Other savings attributable to the projects (e.g., Supplemental Insurance)               $3,470,633
          17A –17D        Total savings attributable to the projects                                            $112,202,799




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                        8
APPENDIX B

                               Summary of Overall Performance of Projects in 2012 


The following table provides data for the 54 Senior Medicare Patrol projects that operated in 2012.




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)   9
                         Summary of Overall Performance of Projects in 2012
                                                                                                           Total for 2012
                                            PERFORMANCE MEASURES
1               Total number of active volunteers                                                                  5,137
2               Total number of volunteer training hours                                                          39,257
3               Total number of volunteer work hours                                                             120,953
4               Number of media airings                                                                          188,199
5               Number of community outreach education events conducted                                           10,032
6               Estimated number of people reached by community outreach education events                        996,040
7               Number of group education sessions for beneficiaries                                              14,748
8               Number of beneficiaries who attended group education sessions                                    449,509
9               Number of one-on-one counseling sessions held with or on behalf of a beneficiary                 113,457
10              Total number of simple inquiries received                                                         84,061
11              Total number of simple inquiries resolved                                                         83,856
12              Number of inquiries involving complex issues received                                              2,270
13A             Number of inquiries involving complex issues referred for further action                              908
13B             Total dollar amount referred for further action                                              $27,529,968
14              Number of complex issues resolved                                                                   1,748
15              Number of complex issues pending further action                                                     2,585
16              Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $113,692
17A             Expected Medicare funds recovered attributable to the projects                                $5,957,910
17B             Expected Medicaid funds recovered attributable to the Projects                                  $102,000
17C             Actual savings to beneficiaries attributable to the projects                                    $130,796
17D             Other savings attributable to the projects (e.g., Supplemental Insurance)                         $ 3,175
17A –17D        Total savings attributable to the projects                                                    $6,193,881




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    10
APPENDIX C

                                       Results for 2012, by Performance Measure
The following tables provide the results by performance measure for each of the 54 Senior Medicare Patrol projects operating 

in 2012. 


The total amounts for Performance Measures 2, 3, 9, 13B, 16, 17A, and 17C, labeled with an asterisk (*), do not match the sum of
each of these performance measures in Appendix B because of rounding.




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                     11
                       PERFORMANCE MEASURE 1: Total Number of Active Volunteers
                                           Total for 2012                                                  Total for 2012
Alabama                                               54                    Montana                                   49
Alaska                                                93                    Nebraska                                 114
Arizona                                              120                    Nevada                                    65
Arkansas                                              69                    New Hampshire                             13
California                                           515                    New Jersey                                26
Colorado                                              24                    New Mexico                                59
Connecticut                                          174                    New York                                 429
Delaware                                              16                    North Carolina                            86
District of Columbia                                  52                    North Dakota                              44
Florida                                              187                    Ohio                                      56
Georgia                                              180                    Oklahoma                                   0
Guam                                                   8                    Oregon                                   183
Hawaii                                                71                    Pennsylvania                              61
Idaho                                                208                    Puerto Rico                               26
Illinois                                              65                    Rhode Island                              50
Indiana                                               86                    South Carolina                            36
Iowa                                                  85                    South Dakota                              28
Kansas                                                35                    Tennessee                                125
Kentucky                                              94                    Texas                                    186
Louisiana                                             41                    Utah                                     182
Maine                                                114                    Vermont                                   47
Maryland                                             152                    Virginia                                  36
Massachusetts                                         48                    Virgin Islands                            29
Michigan                                             317                    Washington                                13
Minnesota                                             76                    West Virginia                             66
Mississippi                                           15                    Wisconsin                                107
Missouri                                              90                    Wyoming                                   32




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    12
                   PERFORMANCE MEASURE 2: Total Number of Volunteer Training Hours*
                                           Total for 2012                                                  Total for 2012
Alabama                                               20                    Montana                                  188
Alaska                                             1,502                    Nebraska                                 516
Arizona                                            1,941                    Nevada                                   928
Arkansas                                             210                    New Hampshire                            257
California                                         1,087                    New Jersey                               354
Colorado                                              63                    New Mexico                             1,183
Connecticut                                          492                    New York                               1,847
Delaware                                              71                    North Carolina                           164
District of Columbia                                 345                    North Dakota                             101
Florida                                            1,005                    Ohio                                     223
Georgia                                              938                    Oklahoma                                   0
Guam                                                  39                    Oregon                                 1,674
Hawaii                                             1,548                    Pennsylvania                             114
Idaho                                              1,262                    Puerto Rico                              938
Illinois                                             246                    Rhode Island                             222
Indiana                                               86                    South Carolina                           528
Iowa                                                 442                    South Dakota                              33
Kansas                                               150                    Tennessee                              1,507
Kentucky                                             402                    Texas                                  1,005
Louisiana                                            158                    Utah                                     854
Maine                                              1,152                    Vermont                                  162
Maryland                                           2,365                    Virginia                                 341
Massachusetts                                        545                    Virgin Islands                           296
Michigan                                           7,416                    Washington                               142
Minnesota                                            648                    West Virginia                              5
Mississippi                                           49                    Wisconsin                                295
Missouri                                             531                    Wyoming                                  673




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    13
                       PERFORMANCE MEASURE 3: Total Number of Volunteer Work Hours*
                                           Total for 2012                                                  Total for 2012
Alabama                                            2,681                    Montana                                  850
Alaska                                               205                    Nebraska                               1,900
Arizona                                            4,052                    Nevada                                 1,023
Arkansas                                             587                    New Hampshire                            178
California                                        12,341                    New Jersey                               445
Colorado                                             133                    New Mexico                             2,860
Connecticut                                          907                    New York                               1,617
Delaware                                             657                    North Carolina                        31,698
District of Columbia                               1,096                    North Dakota                             483
Florida                                            3,425                    Ohio                                     726
Georgia                                            2,851                    Oklahoma                                   0
Guam                                                 340                    Oregon                                 1,846
Hawaii                                             1,476                    Pennsylvania                           1,003
Idaho                                              2,536                    Puerto Rico                            4,948
Illinois                                             710                    Rhode Island                             880
Indiana                                            1,467                    South Carolina                           205
Iowa                                                 567                    South Dakota                              73
Kansas                                                 6                    Tennessee                              1,817
Kentucky                                           1,772                    Texas                                    593
Louisiana                                          1,051                    Utah                                   5,939
Maine                                              5,640                    Vermont                                  957
Maryland                                           5,701                    Virginia                                 360
Massachusetts                                      2,568                    Virgin Islands                           528
Michigan                                           3,432                    Washington                               698
Minnesota                                            691                    West Virginia                            995
Mississippi                                          313                    Wisconsin                                873
Missouri                                             172                    Wyoming                                   85




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    14
                             PERFORMANCE MEASURE 4: Number of Media Airings
                                           Total for 2012                                                  Total for 2012
Alabama                                               70                    Montana                                  513
Alaska                                               300                    Nebraska                               6,406
Arizona                                               12                    Nevada                                13,779
Arkansas                                             147                    New Hampshire                          2,517
California                                           119                    New Jersey                               934
Colorado                                             145                    New Mexico                             5,829
Connecticut                                          102                    New York                              38,061
Delaware                                           15613                    North Carolina                        38,290
District of Columbia                               4,033                    North Dakota                             104
Florida                                            1,172                    Ohio                                   1,965
Georgia                                            6,203                    Oklahoma                               7,475
Guam                                                 359                    Oregon                                    18
Hawaii                                               746                    Pennsylvania                              69
Idaho                                              2,028                    Puerto Rico                               20
Illinois                                             176                    Rhode Island                             181
Indiana                                            2,428                    South Carolina                         4,397
Iowa                                                 352                    South Dakota                              26
Kansas                                                52                    Tennessee                              3,710
Kentucky                                           2,400                    Texas                                  3,632
Louisiana                                          4,129                    Utah                                     135
Maine                                                224                    Vermont                                  529
Maryland                                           4,228                    Virginia                               2,838
Massachusetts                                        424                    Virgin Islands                            89
Michigan                                             628                    Washington                                 4
Minnesota                                            106                    West Virginia                            337
Mississippi                                            1                    Wisconsin                              1,187
Missouri                                             132                    Wyoming                                8,825




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    15
           PERFORMANCE MEASURE 5: Number of Community Outreach Education Events Conducted
                                           Total for 2012                                                  Total for 2012
Alabama                                              188                    Montana                                   22
Alaska                                                62                    Nebraska                                 257
Arizona                                               52                    Nevada                                   125
Arkansas                                              16                    New Hampshire                             97
California                                           383                    New Jersey                                55
Colorado                                             131                    New Mexico                               421
Connecticut                                           91                    New York                                 519
Delaware                                              91                    North Carolina                           231
District of Columbia                                  57                    North Dakota                             128
Florida                                              368                    Ohio                                     174
Georgia                                              897                    Oklahoma                                  89
Guam                                                  50                    Oregon                                    23
Hawaii                                                90                    Pennsylvania                              86
Idaho                                                142                    Puerto Rico                            1,174
Illinois                                             263                    Rhode Island                             131
Indiana                                              308                    South Carolina                           330
Iowa                                                  46                    South Dakota                               6
Kansas                                                84                    Tennessee                                579
Kentucky                                             126                    Texas                                    124
Louisiana                                            120                    Utah                                     176
Maine                                                139                    Vermont                                   19
Maryland                                             313                    Virginia                                 268
Massachusetts                                         79                    Virgin Islands                            29
Michigan                                             238                    Washington                               198
Minnesota                                             78                    West Virginia                             34
Mississippi                                           33                    Wisconsin                                 75
Missouri                                             165                    Wyoming                                   52




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    16
 PERFORMANCE MEASURE 6: Estimated Number of People Reached by Community Outreach Education
                                Events
                                           Total for 2012                                                  Total for 2012
Alabama                                            17,016                   Montana                                 1,557
Alaska                                             2,688                    Nebraska                              21,319
Arizona                                            6,859                    Nevada                                10,184
Arkansas                                           3,479                    New Hampshire                          4,021
California                                        61,551                    New Jersey                             7,291
Colorado                                          10,042                    New Mexico                            41,852
Connecticut                                        9,364                    New York                              38,532
Delaware                                            7994                    North Carolina                       107,025
District of Columbia                               5,040                    North Dakota                           5,249
Florida                                           44,651                    Ohio                                  15,498
Georgia                                           53,386                    Oklahoma                              11,324
Guam                                               3,502                    Oregon                                 2,519
Hawaii                                             9,190                    Pennsylvania                           8,641
Idaho                                             11,603                    Puerto Rico                           39,618
Illinois                                          22,511                    Rhode Island                           3,903
Indiana                                           40,661                    South Carolina                        20,982
Iowa                                               4,992                    South Dakota                             319
Kansas                                             3,597                    Tennessee                             79,250
Kentucky                                          11,798                    Texas                                 10,142
Louisiana                                         15,181                    Utah                                  11,401
Maine                                              7,603                    Vermont                                  813
Maryland                                          20,955                    Virginia                              18,915
Massachusetts                                      8,220                    Virgin Islands                         2,404
Michigan                                          55,534                    Washington                            22,412
Minnesota                                         41,098                    West Virginia                          5,880
Mississippi                                        3,656                    Wisconsin                              5,804
Missouri                                           8,656                    Wyoming                                8,358



Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    17
              PERFORMANCE MEASURE 7: Number of Group Education Sessions for Beneficiaries
                                           Total for 2012                                                  Total for 2012
Alabama                                              418                    Montana                                  417
Alaska                                                41                    Nebraska                                 168
Arizona                                              135                    Nevada                                    96
Arkansas                                             141                    New Hampshire                            156
California                                         1,207                    New Jersey                               356
Colorado                                             280                    New Mexico                                66
Connecticut                                           53                    New York                                 684
Delaware                                              27                    North Carolina                           541
District of Columbia                                 157                    North Dakota                             103
Florida                                              567                    Ohio                                     138
Georgia                                            1,582                    Oklahoma                                 189
Guam                                                 158                    Oregon                                    93
Hawaii                                                61                    Pennsylvania                             197
Idaho                                                259                    Puerto Rico                                0
Illinois                                             428                    Rhode Island                              77
Indiana                                              285                    South Carolina                           105
Iowa                                                 479                    South Dakota                              13
Kansas                                                31                    Tennessee                                214
Kentucky                                             197                    Texas                                    258
Louisiana                                            251                    Utah                                     300
Maine                                                284                    Vermont                                  102
Maryland                                             287                    Virginia                                 291
Massachusetts                                        103                    Virgin Islands                            38
Michigan                                             533                    Washington                             1,245
Minnesota                                            450                    West Virginia                             40
Mississippi                                           97                    Wisconsin                                152
Missouri                                             180                    Wyoming                                   18




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    18
        PERFORMANCE MEASURE 8: Number of Beneficiaries Who Attended Group Education Sessions
                                           Total for 2012                                                  Total for 2012
Alabama                                           11,118                    Montana                               11,464
Alaska                                             6,395                    Nebraska                               4,239
Arizona                                            3,641                    Nevada                                 2,842
Arkansas                                           5,246                    New Hampshire                          2,894
California                                        39,044                    New Jersey                            16,378
Colorado                                           5,382                    New Mexico                             1,450
Connecticut                                        2,396                    New York                              20,999
Delaware                                             885                    North Carolina                        22,922
District of Columbia                               3,438                    North Dakota                           1,753
Florida                                           22,850                    Ohio                                   3,716
Georgia                                           46,824                    Oklahoma                               6,711
Guam                                               2,415                    Oregon                                 1,895
Hawaii                                             2,148                    Pennsylvania                           5,343
Idaho                                              8,855                    Puerto Rico                                0
Illinois                                          12,227                    Rhode Island                           1,738
Indiana                                            9,450                    South Carolina                         2,882
Iowa                                              11,230                    South Dakota                             469
Kansas                                               929                    Tennessee                              9,998
Kentucky                                           5,108                    Texas                                  8,135
Louisiana                                          8,711                    Utah                                   6,532
Maine                                              5,427                    Vermont                                2,501
Maryland                                           6,848                    Virginia                               8,209
Massachusetts                                      2,165                    Virgin Islands                           485
Michigan                                          20,221                    Washington                            19,479
Minnesota                                          7,394                    West Virginia                         24,646
Mississippi                                        2,075                    Wisconsin                              3,721
Missouri                                           5,215                    Wyoming                                  471




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    19
 PERFORMANCE MEASURE 9: Number of One-on-One Counseling Sessions Held With                                         or
                               on Behalf of a Beneficiary*
                                                 Total for 2012                                            Total for 2012
Alabama                                                     120             Montana                                   571
Alaska                                                       3              Nebraska                               2,682
Arizona                                                    531              Nevada                                   464
Arkansas                                                   105              New Hampshire                          2,345
California                                               9,582              New Jersey                               235
Colorado                                                    37              New Mexico                             2,206
Connecticut                                              2,161              New York                               4,111
Delaware                                                   380              North Carolina                         5,778
District of Columbia                                        43              North Dakota                             104
Florida                                                     32              Ohio                                        63
Georgia                                                  4,424              Oklahoma                                    91
Guam                                                       700              Oregon                                 1,167
Hawaii                                                      53              Pennsylvania                           1,109
Idaho                                                    2,348              Puerto Rico                            5,219
Illinois                                                 5,184              Rhode Island                           2,592
Indiana                                                  1,725              South Carolina                        10,151
Iowa                                                       770              South Dakota                             193
Kansas                                                      20              Tennessee                              2,778
Kentucky                                                 1,643              Texas                                    441
Louisiana                                                  699              Utah                                   6,335
Maine                                                    6,363              Vermont                                      0
Maryland                                                15,501              Virginia                                 612
Massachusetts                                               46              Virgin Islands                           115
Michigan                                                 2,568              Washington                             3,272
Minnesota                                                  119              West Virginia                            504
Mississippi                                                825              Wisconsin                                193
Missouri                                                     2              Wyoming                                4,143



Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                     20
                       PERFORMANCE MEASURE 10: Total Number of Simple Inquiries Received
                                           Total for 2012                                                  Total for 2012
Alabama                                               74                    Montana                                  488
Alaska                                                 8                    Nebraska                                 196
Arizona                                              407                    Nevada                                   148
Arkansas                                             230                    New Hampshire                            538
California                                           387                    New Jersey                               463
Colorado                                             192                    New Mexico                               214
Connecticut                                        3,187                    New York                                  63
Delaware                                             879                    North Carolina                         4,037
District of Columbia                                 197                    North Dakota                              76
Florida                                              229                    Ohio                                      44
Georgia                                            4,020                    Oklahoma                                  77
Guam                                                 669                    Oregon                                 3,186
Hawaii                                               390                    Pennsylvania                             153
Idaho                                                 84                    Puerto Rico                                0
Illinois                                           9,223                    Rhode Island                           3,757
Indiana                                               30                    South Carolina                         2,459
Iowa                                                 233                    South Dakota                              83
Kansas                                                61                    Tennessee                                 95
Kentucky                                             318                    Texas                                    484
Louisiana                                            159                    Utah                                   7,675
Maine                                              2,977                    Vermont                                   18
Maryland                                           8,496                    Virginia                                 798
Massachusetts                                        564                    Virgin Islands                            17
Michigan                                             462                    Washington                             7,537
Minnesota                                          2,123                    West Virginia                          2,560
Mississippi                                           84                    Wisconsin                              1,812
Missouri                                           8,223                    Wyoming                                3,177




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    21
                       PERFORMANCE MEASURE 11: Total Number of Simple Inquiries Resolved
                                               Total for 2012                                              Total for 2012
Alabama                                                   73                Montana                                  488
Alaska                                                     8                Nebraska                                 196
Arizona                                                  407                Nevada                                   148
Arkansas                                                 228                New Hampshire                            538
California                                               387                New Jersey                               461
Colorado                                                 170                New Mexico                               214
Connecticut                                            3,187                New York                                  62
Delaware                                                 879                North Carolina                         4,036
District of Columbia                                     197                North Dakota                              76
Florida                                                  229                Ohio                                      44
Georgia                                                4,009                Oklahoma                                  75
Guam                                                     668                Oregon                                 3,186
Hawaii                                                   390                Pennsylvania                             153
Idaho                                                     84                Puerto Rico                                0
Illinois                                               9,223                Rhode Island                           3,757
Indiana                                                   30                South Carolina                         2,373
Iowa                                                     233                South Dakota                              83
Kansas                                                    61                Tennessee                                 95
Kentucky                                                 318                Texas                                    469
Louisiana                                                159                Utah                                   7,675
Maine                                                  2,976                Vermont                                   18
Maryland                                               8,470                Virginia                                 798
Massachusetts                                            558                Virgin Islands                            17
Michigan                                                 462                Washington                             7,525
Minnesota                                              2,123                West Virginia                          2,560
Mississippi                                               84                Wisconsin                              1,809
Missouri                                               8,210                Wyoming                                3,177




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    22
              PERFORMANCE MEASURE 12: Number of Inquiries Involving Complex Issues Received
                                           Total for 2012                                                  Total for 2012
Alabama                                               11                    Montana                                   38
Alaska                                                 2                    Nebraska                                  25
Arizona                                                1                    Nevada                                    12
Arkansas                                              32                    New Hampshire                             16
California                                           211                    New Jersey                                86
Colorado                                              61                    New Mexico                                35
Connecticut                                           53                    New York                                   0
Delaware                                              54                    North Carolina                            62
District of Columbia                                   4                    North Dakota                               1
Florida                                               59                    Ohio                                      12
Georgia                                               18                    Oklahoma                                   6
Guam                                                   2                    Oregon                                    13
Hawaii                                                22                    Pennsylvania                              68
Idaho                                                 12                    Puerto Rico                                0
Illinois                                              64                    Rhode Island                              14
Indiana                                                7                    South Carolina                            47
Iowa                                                  21                    South Dakota                              13
Kansas                                                15                    Tennessee                                 55
Kentucky                                              14                    Texas                                     55
Louisiana                                             74                    Utah                                      38
Maine                                                 50                    Vermont                                    5
Maryland                                              33                    Virginia                                  31
Massachusetts                                         38                    Virgin Islands                             0
Michigan                                              45                    Washington                               575
Minnesota                                            115                    West Virginia                              9
Mississippi                                            2                    Wisconsin                                 24
Missouri                                               0                    Wyoming                                   10




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    23
       PERFORMANCE MEASURE 13A: Number of Inquiries Involving Complex Issues Referred for Further
                                    Action
                                               Total for 2012                                              Total for 2012
Alabama                                                     2               Montana                                    27
Alaska                                                     1                Nebraska                                  17
Arizona                                                    0                Nevada                                     4
Arkansas                                                  28                New Hampshire                              6
California                                               149                New Jersey                                23
Colorado                                                  60                New Mexico                                 5
Connecticut                                               20                New York                                   0
Delaware                                                  22                North Carolina                            46
District of Columbia                                       4                North Dakota                               0
Florida                                                   47                Ohio                                      10
Georgia                                                   21                Oklahoma                                   0
Guam                                                       1                Oregon                                     9
Hawaii                                                    11                Pennsylvania                              14
Idaho                                                      7                Puerto Rico                                0
Illinois                                                  33                Rhode Island                              10
Indiana                                                    4                South Carolina                            17
Iowa                                                      21                South Dakota                               0
Kansas                                                    10                Tennessee                                 25
Kentucky                                                   9                Texas                                     45
Louisiana                                                 20                Utah                                      35
Maine                                                      9                Vermont                                    1
Maryland                                                   2                Virginia                                  47
Massachusetts                                             23                Virgin Islands                             0
Michigan                                                  29                Washington                                10
Minnesota                                                  5                West Virginia                              1
Mississippi                                                0                Wisconsin                                 14
Missouri                                                   1                Wyoming                                    3



Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    24
                PERFORMANCE MEASURE 13B: Total Dollar Amount Referred for Further Action*
                                               Total for 2012                                              Total for 2012
Alabama                                                 $953                Montana                             $165,905
Alaska                                                    $0                Nebraska                             $37,580
Arizona                                                   $0                Nevada                                $1,319
Arkansas                                              $1,872                New Hampshire                         $3,000
California                                        $1,122,525                New Jersey                           $27,390
Colorado                                         $25,020,673                New Mexico                           $28,838
Connecticut                                           $2,000                New York                                  $0
Delaware                                            $137,993                North Carolina                       $90,741
District of Columbia                                    $750                North Dakota                             $74
Florida                                              $42,648                Ohio                                  $6,102
Georgia                                               $5,136                Oklahoma                                  $0
Guam                                                 $18,748                Oregon                                $3,013
Hawaii                                                $2,115                Pennsylvania                            $423
Idaho                                                 $7,620                Puerto Rico                               $0
Illinois                                             $25,440                Rhode Island                          $5,055
Indiana                                                 $170                South Carolina                          $270
Iowa                                                 $10,352                South Dakota                         $20,703
Kansas                                                $4,577                Tennessee                             $6,152
Kentucky                                              $4,958                Texas                                $93,890
Louisiana                                            $38,611                Utah                                $125,610
Maine                                                $29,754                Vermont                                 $220
Maryland                                              $1,100                Virginia                              $4,349
Massachusetts                                       $375,623                Virgin Islands                            $0
Michigan                                             $32,918                Washington                              $419
Minnesota                                             $2,655                West Virginia                           $980
Mississippi                                               $0                Wisconsin                            $16,533
Missouri                                                  $0                Wyoming                               $2,213




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    25
                       PERFORMANCE MEASURE 14: Number of Complex Issues Resolved
                                               Total for 2012                                              Total for 2012
Alabama                                                    4                Montana                                   36
Alaska                                                     0                Nebraska                                  29
Arizona                                                    0                Nevada                                     1
Arkansas                                                  16                New Hampshire                             11
California                                               140                New Jersey                                82
Colorado                                                 108                New Mexico                                21
Connecticut                                               47                New York                                   0
Delaware                                                  21                North Carolina                            29
District of Columbia                                       3                North Dakota                               1
Florida                                                   22                Ohio                                       5
Georgia                                                   17                Oklahoma                                  15
Guam                                                       0                Oregon                                     7
Hawaii                                                    27                Pennsylvania                              51
Idaho                                                     17                Puerto Rico                                0
Illinois                                                  58                Rhode Island                              28
Indiana                                                    5                South Carolina                            12
Iowa                                                      16                South Dakota                              15
Kansas                                                    16                Tennessee                                 36
Kentucky                                                  12                Texas                                     45
Louisiana                                                 91                Utah                                      39
Maine                                                     49                Vermont                                    9
Maryland                                                  40                Virginia                                  17
Massachusetts                                             22                Virgin Islands                             0
Michigan                                                  59                Washington                               328
Minnesota                                                106                West Virginia                              0
Mississippi                                                1                Wisconsin                                 26
Missouri                                                   1                Wyoming                                    7




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    26
                PERFORMANCE MEASURE 15: Number of Complex Issues Pending Further Action
                                               Total for 2012                                              Total for 2012
Alabama                                                   14                Montana                                   10
Alaska                                                     0                Nebraska                                  10
Arizona                                                   25                Nevada                                    25
Arkansas                                                  22                New Hampshire                              9
California                                               407                New Jersey                                15
Colorado                                                  25                New Mexico                                13
Connecticut                                               18                New York                                 121
Delaware                                                  63                North Carolina                            29
District of Columbia                                      11                North Dakota                               0
Florida                                                  234                Ohio                                      13
Georgia                                                   29                Oklahoma                                   5
Guam                                                       8                Oregon                                     5
Hawaii                                                    12                Pennsylvania                              39
Idaho                                                      3                Puerto Rico                                2
Illinois                                                 103                Rhode Island                              32
Indiana                                                   78                South Carolina                            70
Iowa                                                      53                South Dakota                               0
Kansas                                                    66                Tennessee                                 62
Kentucky                                                   1                Texas                                    135
Louisiana                                                 27                Utah                                       3
Maine                                                     10                Vermont                                    2
Maryland                                                  24                Virginia                                  68
Massachusetts                                             37                Virgin Islands                             3
Michigan                                                  15                Washington                               323
Minnesota                                                 46                West Virginia                            141
Mississippi                                               32                Wisconsin                                 16
Missouri                                                  66                Wyoming                                    5




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    27
           PERFORMANCE MEASURE 16: Cost Avoidance on Behalf of Medicare, Medicaid, Beneficiaries, or
                                                 Others*
                                               Total for 2012                                              Total for 2012
Alabama                                                    $0               Montana                                  $363
Alaska                                                    $0                Nebraska                                  $0
Arizona                                                   $0                Nevada                                    $0
Arkansas                                                 $66                New Hampshire                             $0
California                                           $32,721                New Jersey                              $929
Colorado                                             $10,571                New Mexico                            $9,195
Connecticut                                               $0                New York                                  $0
Delaware                                              $7,644                North Carolina                            $0
District of Columbia                                                        North Dakota                              $0
                                                         $0
Florida                                                 $522                Ohio                                       $0
Georgia                                                   $0                Oklahoma                                  $0
Guam                                                      $0                Oregon                                    $0
Hawaii                                                  $477                Pennsylvania                              $0
Idaho                                                 $5,367                Puerto Rico                               $0
Illinois                                                  $0                Rhode Island                               $0
Indiana                                                   $0                South Carolina                            $0
Iowa                                                      $0                South Dakota                         $18,973
Kansas                                                    $0                Tennessee                                 $0
Kentucky                                              $4,207                Texas                                     $0
Louisiana                                             $1,748                Utah                                 $11,140
Maine                                                     $0                Vermont                                   $0
Maryland                                                  $0                Virginia                                  $0
Massachusetts                                         $1,880                Virgin Islands                            $0
Michigan                                                  $0                Washington                                $0
Minnesota                                                 $0                West Virginia                             $0
Mississippi                                               $0                Wisconsin                             $7,891
Missouri                                                  $0                Wyoming                                   $0



Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    28
       PERFORMANCE MEASURE 17A: Expected Medicare Funds Recovered Attributable to the Projects*
                                               Total for 2012                                              Total for 2012
Alabama                                                   $0                Montana                                   $0
Alaska                                                    $0                Nebraska                                  $0
Arizona                                                   $0                Nevada                                    $0
Arkansas                                                $105                New Hampshire                             $0
California                                        $1,695,486                New Jersey                              $282
Colorado                                             $16,928                New Mexico                              $215
Connecticut                                               $0                New York                                  $0
Delaware                                              $2,071                North Carolina                            $0
District of Columbia                                                        North Dakota                              $0
                                                         $0
Florida                                               $1,533                Ohio                                 $11,522
Georgia                                           $3,993,860                Oklahoma                                  $0
Guam                                                      $0                Oregon                                    $0
Hawaii                                                    $0                Pennsylvania                              $0
Idaho                                                     $0                Puerto Rico                               $0
Illinois                                             $69,213                Rhode Island                               $0
Indiana                                                   $0                South Carolina                            $0
Iowa                                                      $0                South Dakota                              $0
Kansas                                                    $0                Tennessee                                 $0
Kentucky                                              $1,163                Texas                                     $0
Louisiana                                           $160,507                Utah                                  $4,665
Maine                                                   $156                Vermont                                   $0
Maryland                                                  $0                Virginia                                  $0
Massachusetts                                             $0                Virgin Islands                            $0
Michigan                                                  $0                Washington                                $0
Minnesota                                                 $0                West Virginia                             $0
Mississippi                                               $0                Wisconsin                               $203
Missouri                                                  $0                Wyoming                                   $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    29
        PERFORMANCE MEASURE 17B: Expected Medicaid Funds Recovered Attributable to the Projects
                                               Total for 2012                                              Total for 2012
Alabama                                                   $0                Montana                                   $0
Alaska                                                    $0                Nebraska                                  $0
Arizona                                                   $0                Nevada                                    $0
Arkansas                                                  $0                New Hampshire                             $0
California                                          $102,000                New Jersey                                $0
Colorado                                                  $0                New Mexico                                $0
Connecticut                                               $0                New York                                  $0
Delaware                                                  $0                North Carolina                            $0
District of Columbia                                      $0                North Dakota                              $0
Florida                                                   $0                Ohio                                       $0
Georgia                                                   $0                Oklahoma                                  $0
Guam                                                      $0                Oregon                                    $0
Hawaii                                                    $0                Pennsylvania                              $0
Idaho                                                     $0                Puerto Rico                               $0
Illinois                                                  $0                Rhode Island                               $0
Indiana                                                   $0                South Carolina                            $0
Iowa                                                      $0                South Dakota                              $0
Kansas                                                    $0                Tennessee                                 $0
Kentucky                                                  $0                Texas                                     $0
Louisiana                                                 $0                Utah                                      $0
Maine                                                     $0                Vermont                                   $0
Maryland                                                  $0                Virginia                                  $0
Massachusetts                                             $0                Virgin Islands                            $0
Michigan                                                  $0                Washington                                $0
Minnesota                                                 $0                West Virginia                             $0
Mississippi                                               $0                Wisconsin                                 $0
Missouri                                                  $0                Wyoming                                   $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    30
           PERFORMANCE MEASURE 17C: Actual Savings To Beneficiaries Attributable to the Projects*
                                               Total for 2012                                              Total for 2012
Alabama                                                   $0                Montana                              $12,660
Alaska                                                    $0                Nebraska                                  $0
Arizona                                                   $0                Nevada                                    $0
Arkansas                                                  $0                New Hampshire                             $0
California                                           $91,500                New Jersey                              $668
Colorado                                             $16,481                New Mexico                            $3,530
Connecticut                                               $0                New York                                  $0
Delaware                                                  $0                North Carolina                            $0
District of Columbia                                      $0                North Dakota                             $74
Florida                                                   $0                Ohio                                      $0
Georgia                                                   $0                Oklahoma                                  $0
Guam                                                      $0                Oregon                                    $0
Hawaii                                                    $0                Pennsylvania                              $0
Idaho                                                   $749                Puerto Rico                               $0
Illinois                                                $182                Rhode Island                               $0
Indiana                                                   $0                South Carolina                            $0
Iowa                                                      $0                South Dakota                              $0
Kansas                                                    $0                Tennessee                             $1,934
Kentucky                                                $417                Texas                                     $0
Louisiana                                                $44                Utah                                    $314
Maine                                                     $0                Vermont                                   $0
Maryland                                                  $0                Virginia                                  $0
Massachusetts                                         $2,088                Virgin Islands                            $0
Michigan                                                                    Washington                                $0
                                                         $0
Minnesota                                               $156                West Virginia                             $0
Mississippi                                               $0                Wisconsin                                 $0
Missouri                                                  $0                Wyoming                                   $0

Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    31
                   PERFORMANCE MEASURE 17D: Other Savings Attributable to the Projects
                                               Total for 2012                                              Total for 2012
Alabama                                                   $0                Montana                                   $0
Alaska                                                    $0                Nebraska                                  $0
Arizona                                                   $0                Nevada                                    $0
Arkansas                                                  $0                New Hampshire                             $0
California                                              $229                New Jersey                                $0
Colorado                                              $2,946                New Mexico                                $0
Connecticut                                               $0                New York                                  $0
Delaware                                                  $0                North Carolina                            $0
District of Columbia                                      $0                North Dakota                              $0
Florida                                                   $0                Ohio                                      $0
Georgia                                                   $0                Oklahoma                                  $0
Guam                                                      $0                Oregon                                    $0
Hawaii                                                    $0                Pennsylvania                              $0
Idaho                                                     $0                Puerto Rico                               $0
Illinois                                                  $0                Rhode Island                              $0
Indiana                                                   $0                South Carolina                            $0
Iowa                                                      $0                South Dakota                              $0
Kansas                                                    $0                Tennessee                                 $0
Kentucky                                                  $0                Texas                                     $0
Louisiana                                                 $0                Utah                                      $0
Maine                                                     $0                Vermont                                   $0
Maryland                                                  $0                Virginia                                  $0
Massachusetts                                             $0                Virgin Islands                            $0
Michigan                                                  $0                Washington                                $0
Minnesota                                                 $0                West Virginia                             $0
Mississippi                                               $0                Wisconsin                                 $0
Missouri                                                  $0                Wyoming                                   $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    32
APPENDIX D 


                                                   Results for 2012, by Project
The following tables provide a project-by-project listing of the results for each performance measure for each of the 54 Senior
Medicare Patrol projects operating in 2012.




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                          33
               Alabama – Department of Senior Services, Montgomery
               In operation since: July 2006
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                             54
               2             Total number of volunteer training hours                                                      20
               3             Total number of volunteer work hours                                                       2,681
               4             Number of media airings                                                                       70
               5             Number of community outreach education events conducted                                      188
               6             Estimated number of people reached by community outreach education events                 17,016
               7             Number of group education sessions for beneficiaries                                         418
               8             Number of beneficiaries who attended group education sessions                             11,118
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             120
               10            Total number of simple inquiries received                                                     74
               11            Total number of simple inquiries resolved                                                     73
               12            Number of inquiries involving complex issues received                                         11
               13A           Number of inquiries involving complex issues referred for further action                       2
               13B           Total dollar amount referred for further action                                            $953
               14            Number of complex issues resolved                                                              4
               15            Number of complex issues pending further action                                               14
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
               17A           Expected Medicare funds recovered attributable to the projects                                $0
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                                  $0
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         34
               Alaska – Health and Social Services, Medicare Information Office, Anchorage
               In operation since: July 1999
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                             93
               2             Total number of volunteer training hours                                                   1,502
               3             Total number of volunteer work hours                                                         205
               4             Number of media airings                                                                      300
               5             Number of community outreach education events conducted                                       62
               6             Estimated number of people reached by community outreach education events                  2,688
               7             Number of group education sessions for beneficiaries                                          41
               8             Number of beneficiaries who attended group education sessions                              6,395
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary               3
               10            Total number of simple inquiries received                                                      8
               11            Total number of simple inquiries resolved                                                      8
               12            Number of inquiries involving complex issues received                                          2
               13A           Number of inquiries involving complex issues referred for further action                       1
               13B           Total dollar amount referred for further action                                               $0
               14            Number of complex issues resolved                                                              0
               15            Number of complex issues pending further action                                                0
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
               17A           Expected Medicare funds recovered attributable to the projects                                $0
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                                  $0
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         35
               Arizona – Arizona Division of Aging and Adult Services, Phoenix
               In operation since: July 1999
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                            120
               2             Total number of volunteer training hours                                                   1,941
               3             Total number of volunteer work hours                                                       4,052
               4             Number of media airings                                                                       12
               5             Number of community outreach education events conducted                                       52
               6             Estimated number of people reached by community outreach education events                  6,859
               7             Number of group education sessions for beneficiaries                                         135
               8             Number of beneficiaries who attended group education sessions                              3,641
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             531
               10            Total number of simple inquiries received                                                    407
               11            Total number of simple inquiries resolved                                                    407
               12            Number of inquiries involving complex issues received                                          1
               13A           Number of inquiries involving complex issues referred for further action                       0
               13B           Total dollar amount referred for further action                                               $0
               14            Number of complex issues resolved                                                              0
               15            Number of complex issues pending further action                                               25
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
               17A           Expected Medicare funds recovered attributable to the projects                                $0
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                                  $0
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         36
                Arkansas – Arkansas Department of Human Services, Division of Aging and Adult Services, Little
                Rock
               In operation since: July 1999
                                                                                                              Total for 2012
                                                       PERFORMANCE MEASURES
               1                  Total number of active volunteers                                                      69
               2                  Total number of volunteer training hours                                              210
               3                  Total number of volunteer work hours                                                  587
               4                  Number of media airings                                                               147
               5                  Number of community outreach education events conducted                                16
               6                  Estimated number of people reached by community outreach education events           3,479
               7                  Number of group education sessions for beneficiaries                                  141
               8                  Number of beneficiaries who attended group education sessions                       5,246
               9                  Number of one-on-one counseling sessions held with or on behalf of a
                                  beneficiary                                                                           105
               10                 Total number of simple inquiries received                                             230
               11                 Total number of simple inquiries resolved                                             228
               12                 Number of inquiries involving complex issues received                                  32
               13A                Number of inquiries involving complex issues referred for further action               28
               13B                Total dollar amount referred for further action                                    $1,872
               14                 Number of complex issues resolved                                                      16
               15                 Number of complex issues pending further action                                        22
               16                 Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others              $66
               17A                Expected Medicare funds recovered attributable to the projects                       $105
               17B                Expected Medicaid funds recovered attributable to the projects                         $0
               17C                Actual savings to beneficiaries attributable to the projects                           $0
               17D                Other savings attributable to the projects (e.g., Supplemental Insurance)              $0
               17A –17D           Total savings attributable to the projects                                           $105




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                       37
               California – California Health Advocates, Santa Ana
               In operation since: July 1999
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                            515
               2             Total number of volunteer training hours                                                   1,087
               3             Total number of volunteer work hours                                                      12,341
               4             Number of media airings                                                                      119
               5             Number of community outreach education events conducted                                      383
               6             Estimated number of people reached by community outreach education events                 61,551
               7             Number of group education sessions for beneficiaries                                       1,207
               8             Number of beneficiaries who attended group education sessions                             39,044
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           9,582
               10            Total number of simple inquiries received                                                    387
               11            Total number of simple inquiries resolved                                                    387
               12            Number of inquiries involving complex issues received                                        211
               13A           Number of inquiries involving complex issues referred for further action                     149
               13B           Total dollar amount referred for further action                                       $1,122,525
               14            Number of complex issues resolved                                                            140
               15            Number of complex issues pending further action                                              407
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $32,721
               17A           Expected Medicare funds recovered attributable to the projects                        $1,695,486
               17B           Expected Medicaid funds recovered attributable to the projects                          $102,000
               17C           Actual savings to beneficiaries attributable to the projects                             $91,500
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                   $229
               17A –17D      Total savings attributable to the projects                                            $1,889,215




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         38
               Colorado – Colorado Department of Regulatory Agencies, Division of Insurance, Denver
               In operation since: July 1997
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                             24
               2             Total number of volunteer training hours                                                      63
               3             Total number of volunteer work hours                                                         133
               4             Number of media airings                                                                      145
               5             Number of community outreach education events conducted                                      131
               6             Estimated number of people reached by community outreach education events                 10,042
               7             Number of group education sessions for beneficiaries                                         280
               8             Number of beneficiaries who attended group education sessions                              5382
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              37
               10            Total number of simple inquiries received                                                    192
               11            Total number of simple inquiries resolved                                                    170
               12            Number of inquiries involving complex issues received                                         61
               13A           Number of inquiries involving complex issues referred for further action                      60
               13B           Total dollar amount referred for further action                                      $25,020,673
               14            Number of complex issues resolved                                                            108
               15            Number of complex issues pending further action                                               25
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                 $10,571
               17A           Expected Medicare funds recovered attributable to the projects                           $16,928
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                             $16,481
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                 $2,946
               17A –17D      Total savings attributable to the projects                                               $36,355




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         39
               Connecticut – Connecticut Department of Social Services, Aging Services Division, Hartford
              In operation since: July 1999
                                                                                                               Total for 2012
                                                     PERFORMANCE MEASURES
              1             Total number of active volunteers                                                            174
              2             Total number of volunteer training hours                                                     492
              3             Total number of volunteer work hours                                                         907
              4             Number of media airings                                                                      102
              5             Number of community outreach education events conducted                                       91
              6             Estimated number of people reached by community outreach education events                  9,364
              7             Number of group education sessions for beneficiaries                                          53
              8             Number of beneficiaries who attended group education sessions                              2,396
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           2,161
              10            Total number of simple inquiries received                                                  3,187
              11            Total number of simple inquiries resolved                                                  3,187
              12            Number of inquiries involving complex issues received                                         53
              13A           Number of inquiries involving complex issues referred for further action                      20
              13B           Total dollar amount referred for further action                                           $2,000
              14            Number of complex issues resolved                                                             47
              15            Number of complex issues pending further action                                               18
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare funds recovered attributable to the projects                                $0
              17B           Expected Medicaid funds recovered attributable to the projects                                $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                        40
               Delaware – Delaware Partners of Senior Medicare Patrol, New Castle
               In operation since: July 1999
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                             16
               2             Total number of volunteer training hours                                                      71
               3             Total number of volunteer work hours                                                         657
               4             Number of media airings                                                                   15,613
               5             Number of community outreach education events conducted                                       91
               6             Estimated number of people reached by community outreach education events                  7,994
               7             Number of group education sessions for beneficiaries                                          27
               8             Number of beneficiaries who attended group education sessions                                885
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             380
               10            Total number of simple inquiries received                                                    879
               11            Total number of simple inquiries resolved                                                    879
               12            Number of inquiries involving complex issues received                                         54
               13A           Number of inquiries involving complex issues referred for further action                      22
               13B           Total dollar amount referred for further action                                         $137,993
               14            Number of complex issues resolved                                                             21
               15            Number of complex issues pending further action                                               63
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $7,644
               17A           Expected Medicare funds recovered attributable to the projects                            $2,071
               17B           Expected Medicaid funds recovered attributable to the projects                             $0.00
               17C           Actual savings to beneficiaries attributable to the projects                               $0.00
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                  $0.00
               17A –17D      Total savings attributable to the projects                                                $2,071




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         41
               District of Columbia – AARP Legal Counsel for the Elderly, Washington, DC
               In operation since: July 1999
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                             52
               2             Total number of volunteer training hours                                                     345
               3             Total number of volunteer work hours                                                       1,096
               4             Number of media airings                                                                    4,033
               5             Number of community outreach education events conducted                                       57
               6             Estimated number of people reached by community outreach education events                  5,040
               7             Number of group education sessions for beneficiaries                                         157
               8             Number of beneficiaries who attended group education sessions                              3,438
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              43
               10            Total number of simple inquiries received                                                    197
               11            Total number of simple inquiries resolved                                                    197
               12            Number of inquiries involving complex issues received                                          4
               13A           Number of inquiries involving complex issues referred for further action                       4
               13B           Total dollar amount referred for further action                                             $750
               14            Number of complex issues resolved                                                              3
               15            Number of complex issues pending further action                                               11
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
               17A           Expected Medicare funds recovered attributable to the projects                                $0
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                                  $0
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         42
               Florida – Area Agency on Aging of Pasco-Pinellas, Inc., St. Petersburg
               In operation since: July 1999
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                            187
               2             Total number of volunteer training hours                                                   1,005
               3             Total number of volunteer work hours                                                       3,425
               4             Number of media airings                                                                    1,172
               5             Number of community outreach education events conducted                                      368
               6             Estimated number of people reached by community outreach education events                 44,651
               7             Number of group education sessions for beneficiaries                                         567
               8             Number of beneficiaries who attended group education sessions                             22,850
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              32
               10            Total number of simple inquiries received                                                    229
               11            Total number of simple inquiries resolved                                                    229
               12            Number of inquiries involving complex issues received                                         59
               13A           Number of inquiries involving complex issues referred for further action                      47
               13B           Total dollar amount referred for further action                                          $42,648
               14            Number of complex issues resolved                                                             22
               15            Number of complex issues pending further action                                              234
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $522
               17A           Expected Medicare funds recovered attributable to the projects                            $1,533
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                                  $0
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                                $1,533




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         43
               Georgia – GeorgiaCares Senior Medicare Patrol, Atlanta
               In operation since: July 1999
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                            180
               2             Total number of volunteer training hours                                                     938
               3             Total number of volunteer work hours                                                       2,851
               4             Number of media airings                                                                    6,203
               5             Number of community outreach education events conducted                                      897
               6             Estimated number of people reached by community outreach education events                 53,386
               7             Number of group education sessions for beneficiaries                                       1,582
               8             Number of beneficiaries who attended group education sessions                             46,824
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           4,424
               10            Total number of simple inquiries received                                                  4,020
               11            Total number of simple inquiries resolved                                                  4,009
               12            Number of inquiries involving complex issues received                                         18
               13A           Number of inquiries involving complex issues referred for further action                      21
               13B           Total dollar amount referred for further action                                           $5,136
               14            Number of complex issues resolved                                                             17
               15            Number of complex issues pending further action                                               29
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
               17A           Expected Medicare funds recovered attributable to the projects                        $3,993,860
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                                  $0
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                            $3,993,860




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         44
                Guam – Division of Senior Citizens, Department of Public Health & Social Services, Mangilao
               In operation since: July 2005
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                              8
               2             Total number of volunteer training hours                                                      39
               3             Total number of volunteer work hours                                                         340
               4             Number of media airings                                                                      359
               5             Number of community outreach education events conducted                                       50
               6             Estimated number of people reached by community outreach education events                  3,502
               7             Number of group education sessions for beneficiaries                                         158
               8             Number of beneficiaries who attended group education sessions                              2,415
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             700
               10            Total number of simple inquiries received                                                    669
               11            Total number of simple inquiries resolved                                                    668
               12            Number of inquiries involving complex issues received                                          2
               13A           Number of inquiries involving complex issues referred for further action                       1
               13B           Total dollar amount referred for further action                                          $18,748
               14            Number of complex issues resolved                                                              0
               15            Number of complex issues pending further action                                                8
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
               17A           Expected Medicare funds recovered attributable to the projects                                $0
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                                  $0
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         45
                Hawaii – State of Hawaii Executive Office on Aging, Honolulu
                In operation since: July 1997
                                                                                                                 Total for 2012
                                                     PERFORMANCE MEASURES
                1             Total number of active volunteers                                                             71
                2             Total number of volunteer training hours                                                   1,548
                3             Total number of volunteer work hours                                                       1,476
                4             Number of media airings                                                                      746
                5             Number of community outreach education events conducted                                       90
                6             Estimated number of people reached by community outreach education events                  9,190
                7             Number of group education sessions for beneficiaries                                          61
                8             Number of beneficiaries who attended group education sessions                              2,148
                9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              53
                10            Total number of simple inquiries received                                                    390
                11            Total number of simple inquiries resolved                                                    390
                12            Number of inquiries involving complex issues received                                         22
                13A           Number of inquiries involving complex issues referred for further action                      11
                13B           Total dollar amount referred for further action                                           $2,115
                14            Number of complex issues resolved                                                             27
                15            Number of complex issues pending further action                                               12
                16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $477
                17A           Expected Medicare funds recovered attributable to the projects                                $0
                17B           Expected Medicaid funds recovered attributable to the projects                                $0
                17C           Actual savings to beneficiaries attributable to the projects                                  $0
                17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
                17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                          46
               Idaho – Idaho Department of Insurance, Boise
               In operation since: July 1999
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                            208
               2             Total number of volunteer training hours                                                   1,262
               3             Total number of volunteer work hours                                                       2,536
               4             Number of media airings                                                                    2,028
               5             Number of community outreach education events conducted                                      142
               6             Estimated number of people reached by community outreach education events                 11,603
               7             Number of group education sessions for beneficiaries                                         259
               8             Number of beneficiaries who attended group education sessions                              8,855
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           2,348
               10            Total number of simple inquiries received                                                     84
               11            Total number of simple inquiries resolved                                                     84
               12            Number of inquiries involving complex issues received                                         12
               13A           Number of inquiries involving complex issues referred for further action                       7
               13B           Total dollar amount referred for further action                                           $7,620
               14            Number of complex issues resolved                                                             17
               15            Number of complex issues pending further action                                                3
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $5,367
               17A           Expected Medicare funds recovered attributable to the projects                                $0
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                                $749
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                                  $749




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         47
               Illinois – AgeOptions, Oak Park
               In operation since: July 2006
                                                                                                                Total for 2012
                                                     PERFORMANCE MEASURES
               1             Total number of active volunteers                                                             65
               2             Total number of volunteer training hours                                                     246
               3             Total number of volunteer work hours                                                         710
               4             Number of media airings                                                                      176
               5             Number of community outreach education events conducted                                      263
               6             Estimated number of people reached by community outreach education events                 22,511
               7             Number of group education sessions for beneficiaries                                         428
               8             Number of beneficiaries who attended group education sessions                             12,227
               9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           5,184
               10            Total number of simple inquiries received                                                  9,223
               11            Total number of simple inquiries resolved                                                  9,223
               12            Number of inquiries involving complex issues received                                         64
               13A           Number of inquiries involving complex issues referred for further action                      33
               13B           Total dollar amount referred for further action                                          $25,440
               14            Number of complex issues resolved                                                             58
               15            Number of complex issues pending further action                                              103
               16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
               17A           Expected Medicare funds recovered attributable to the projects                           $69,213
               17B           Expected Medicaid funds recovered attributable to the projects                                $0
               17C           Actual savings to beneficiaries attributable to the projects                                $182
               17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
               17A –17D      Total savings attributable to the projects                                               $69,395




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                         48
               Indiana – Indiana Association of Area Agencies on Aging, Education Institute, Indianapolis
              In operation since: July 1999
                                                                                                               Total for 2012
                                                     PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             86
              2             Total number of volunteer training hours                                                      86
              3             Total number of volunteer work hours                                                       1,467
              4             Number of media airings                                                                    2,428
              5             Number of community outreach education events conducted                                      308
              6             Estimated number of people reached by community outreach education events                 40,661
              7             Number of group education sessions for beneficiaries                                         285
              8             Number of beneficiaries who attended group education sessions                              9,450
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           1,725
              10            Total number of simple inquiries received                                                     30
              11            Total number of simple inquiries resolved                                                     30
              12            Number of inquiries involving complex issues received                                          7
              13A           Number of inquiries involving complex issues referred for further action                       4
              13B           Total dollar amount referred for further action                                            $170
              14            Number of complex issues resolved                                                              5
              15            Number of complex issues pending further action                                               78
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare funds recovered attributable to the projects                                $0
              17B           Expected Medicaid funds recovered attributable to the projects                                $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                        49
             Iowa – Hawkeye Valley Area Agency on Aging, Waterloo
             In operation since: July 1997
                                                                                                              Total for 2012
                                                    PERFORMANCE MEASURES
             1             Total number of active volunteers                                                             85
             2             Total number of volunteer training hours                                                     442
             3             Total number of volunteer work hours                                                         567
             4             Number of media airings                                                                      352
             5             Number of community outreach education events conducted                                       46
             6             Estimated number of people reached by community outreach education events                  4,992
             7             Number of group education sessions for beneficiaries                                         479
             8             Number of beneficiaries who attended group education sessions                             11,230
             9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             770
             10            Total number of simple inquiries received                                                    233
             11            Total number of simple inquiries resolved                                                    233
             12            Number of inquiries involving complex issues received                                         21
             13A           Number of inquiries involving complex issues referred for further action                      21
             13B           Total dollar amount referred for further action                                          $10,352
             14            Number of complex issues resolved                                                             16
             15            Number of complex issues pending further action                                               53
             16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
             17A           Expected Medicare funds recovered attributable to the projects                                $0
             17B           Expected Medicaid funds recovered attributable to the projects                                $0
             17C           Actual savings to beneficiaries attributable to the projects                                  $0
             17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
             17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                       50
              Kansas – Department on Aging, Topeka
              In operation since: July 1997
                                                                                                               Total for 2012
                                                    PERFORMANCE MEASURES
              1             Total number of active volunteers                                                             35
              2             Total number of volunteer training hours                                                     150
              3             Total number of volunteer work hours                                                           6
              4             Number of media airings                                                                       52
              5             Number of community outreach education events conducted                                       84
              6             Estimated number of people reached by community outreach education events                  3,597
              7             Number of group education sessions for beneficiaries                                          31
              8             Number of beneficiaries who attended group education sessions                                929
              9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              20
              10            Total number of simple inquiries received                                                     61
              11            Total number of simple inquiries resolved                                                     61
              12            Number of inquiries involving complex issues received                                         15
              13A           Number of inquiries involving complex issues referred for further action                      10
              13B           Total dollar amount referred for further action                                           $4,577
              14            Number of complex issues resolved                                                             16
              15            Number of complex issues pending further action                                               66
              16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
              17A           Expected Medicare funds recovered attributable to the projects                                $0
              17B           Expected Medicaid funds recovered attributable to the projects                                $0
              17C           Actual savings to beneficiaries attributable to the projects                                  $0
              17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
              17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                        51
             Kentucky – Louisville Metro Department of Public Health and Wellness, Louisville
             In operation since: July 2001
                                                                                                              Total for 2012
                                                    PERFORMANCE MEASURES
             1             Total number of active volunteers                                                             94
             2             Total number of volunteer training hours                                                     402
             3             Total number of volunteer work hours                                                       1,772
             4             Number of media airings                                                                    2,400
             5             Number of community outreach education events conducted                                      126
             6             Estimated number of people reached by community outreach education events                 11,798
             7             Number of group education sessions for beneficiaries                                         197
             8             Number of beneficiaries who attended group education sessions                              5,108
             9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           1,643
             10            Total number of simple inquiries received                                                    318
             11            Total number of simple inquiries resolved                                                    318
             12            Number of inquiries involving complex issues received                                         14
             13A           Number of inquiries involving complex issues referred for further action                       9
             13B           Total dollar amount referred for further action                                           $4,958
             14            Number of complex issues resolved                                                             12
             15            Number of complex issues pending further action                                                1
             16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $4,207
             17A           Expected Medicare funds recovered attributable to the projects                            $1,163
             17B           Expected Medicaid funds recovered attributable to the projects                                $0
             17C           Actual savings to beneficiaries attributable to the projects                               $417
             17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
             17A –17D      Total savings attributable to the projects                                                $1,580




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                       52
            Louisiana – EQ Health Solutions, Baton Rouge
           In operation since: June 2009
                                                                                                            Total for 2012
                                                   PERFORMANCE MEASURES
           1             Total number of active volunteers                                                             41
           2             Total number of volunteer training hours                                                     158
           3             Total number of volunteer work hours                                                       1,051
           4             Number of media airings                                                                    4,129
           5             Number of community outreach education events conducted                                      120
           6             Estimated number of people reached by community outreach education events                 15,181
           7             Number of group education sessions for beneficiaries                                         251
           8             Number of beneficiaries who attended group education sessions                              8,711
           9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             699
           10            Total number of simple inquiries received                                                    159
           11            Total number of simple inquiries resolved                                                    159
           12            Number of inquiries involving complex issues received                                         74
           13A           Number of inquiries involving complex issues referred for further action                      20
           13B           Total dollar amount referred for further action                                          $38,611
           14            Number of complex issues resolved                                                             91
           15            Number of complex issues pending further action                                               27
           16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $1,748
           17A           Expected Medicare funds recovered attributable to the projects                          $160,507
           17B           Expected Medicaid funds recovered attributable to the projects                                $0
           17C           Actual savings to beneficiaries attributable to the projects                                 $44
           17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
           17A –17D      Total savings attributable to the projects                                              $160,551




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                     53
           Maine – Legal Services for the Elderly, Augusta
          In operation since: July 1999
                                                                                                           Total for 2012
                                                  PERFORMANCE MEASURES
          1             Total number of active volunteers                                                            114
          2             Total number of volunteer training hours                                                   1,152
          3             Total number of volunteer work hours                                                       5,640
          4             Number of media airings                                                                      224
          5             Number of community outreach education events conducted                                      139
          6             Estimated number of people reached by community outreach education events                  7,603
          7             Number of group education sessions for beneficiaries                                         284
          8             Number of beneficiaries who attended group education sessions                              5,427
          9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           6,363
          10            Total number of simple inquiries received                                                  2,977
          11            Total number of simple inquiries resolved                                                  2,976
          12            Number of inquiries involving complex issues received                                         50
          13A           Number of inquiries involving complex issues referred for further action                       9
          13B           Total dollar amount referred for further action                                          $29,754
          14            Number of complex issues resolved                                                             49
          15            Number of complex issues pending further action                                               10
          16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
          17A           Expected Medicare funds recovered attributable to the projects                              $156
          17B           Expected Medicaid funds recovered attributable to the projects                                $0
          17C           Actual savings to beneficiaries attributable to the projects                                  $0
          17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
          17A –17D      Total savings attributable to the projects                                                  $156




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    54
           Maryland – Maryland Department of Aging, Baltimore
          In operation since: July 1997
                                                                                                           Total for 2012
                                                 PERFORMANCE MEASURES
          1             Total number of active volunteers                                                            152
          2             Total number of volunteer training hours                                                   2,365
          3             Total number of volunteer work hours                                                       5,701
          4             Number of media airings                                                                    4,228
          5             Number of community outreach education events conducted                                      313
          6             Estimated number of people reached by community outreach education events                 20,955
          7             Number of group education sessions for beneficiaries                                         287
          8             Number of beneficiaries who attended group education sessions                              6,848
          9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary          15,501
          10            Total number of simple inquiries received                                                  8,496
          11            Total number of simple inquiries resolved                                                  8,470
          12            Number of inquiries involving complex issues received                                         33
          13A           Number of inquiries involving complex issues referred for further action                       2
          13B           Total dollar amount referred for further action                                           $1,100
          14            Number of complex issues resolved                                                             40
          15            Number of complex issues pending further action                                               24
          16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
          17A           Expected Medicare funds recovered attributable to the projects                                $0
          17B           Expected Medicaid funds recovered attributable to the projects                                $0
          17C           Actual savings to beneficiaries attributable to the projects                                  $0
          17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
          17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    55
           Massachusetts – Elder Services of Merrimack Valley, Inc., Lawrence
          In operation since: July 1999
                                                                                                           Total for 2012
                                                 PERFORMANCE MEASURES
          1             Total number of active volunteers                                                             48
          2             Total number of volunteer training hours                                                     545
          3             Total number of volunteer work hours                                                       2,568
          4             Number of media airings                                                                      424
          5             Number of community outreach education events conducted                                       79
          6             Estimated number of people reached by community outreach education events                  8,220
          7             Number of group education sessions for beneficiaries                                         103
          8             Number of beneficiaries who attended group education sessions                              2,165
          9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              46
          10            Total number of simple inquiries received                                                    564
          11            Total number of simple inquiries resolved                                                    558
          12            Number of inquiries involving complex issues received                                         38
          13A           Number of inquiries involving complex issues referred for further action                      23
          13B           Total dollar amount referred for further action                                         $375,623
          14            Number of complex issues resolved                                                             22
          15            Number of complex issues pending further action                                               37
          16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $1,880
          17A           Expected Medicare funds recovered attributable to the projects                                $0
          17B           Expected Medicaid funds recovered attributable to the projects                                $0
          17C           Actual savings to beneficiaries attributable to the projects                              $2,088
          17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
          17A –17D      Total savings attributable to the projects                                                $2,088




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    56
           Michigan – Michigan Medicare/Medicaid Assistance Program, Inc., Lansing
           In operation since: July 1999
                                                                                                            Total for 2012
                                                 PERFORMANCE MEASURES
           1             Total number of active volunteers                                                            317
           2             Total number of volunteer training hours                                                   7,416
           3             Total number of volunteer work hours                                                       3,432
           4             Number of media airings                                                                      628
           5             Number of community outreach education events conducted                                      238
           6             Estimated number of people reached by community outreach education events                 55,534
           7             Number of group education sessions for beneficiaries                                         533
           8             Number of beneficiaries who attended group education sessions                             20,221
           9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           2,568
           10            Total number of simple inquiries received                                                    462
           11            Total number of simple inquiries resolved                                                    462
           12            Number of inquiries involving complex issues received                                         45
           13A           Number of inquiries involving complex issues referred for further action                      29
           13B           Total dollar amount referred for further action                                          $32,918
           14            Number of complex issues resolved                                                             59
           15            Number of complex issues pending further action                                               15
           16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
           17A           Expected Medicare funds recovered attributable to the projects                                $0
           17B           Expected Medicaid funds recovered attributable to the projects                                $0
           17C           Actual savings to beneficiaries attributable to the projects                                  $0
           17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
           17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                     57
         Minnesota – Minnesota Board on Aging, Dept. of Human Services, Aging and Adult Services Div., Saint Paul
        In operation since: July 1997
                                                                                                           Total for 2012
                                                  PERFORMANCE MEASURES
       1                Total number of active volunteers                                                             76
       2                Total number of volunteer training hours                                                     648
       3                Total number of volunteer work hours                                                         691
       4                Number of media airings                                                                      106
       5                Number of community outreach education events conducted                                       78
       6                Estimated number of people reached by community outreach education events                 41,098
       7                Number of group education sessions for beneficiaries                                         450
       8                Number of beneficiaries who attended group education sessions                              7,394
       9                Number of one-on-one counseling sessions held with or on behalf of a beneficiary             119
       10               Total number of simple inquiries received                                                  2,123
       11               Total number of simple inquiries resolved                                                  2,123
       12               Number of inquiries involving complex issues received                                        115
       13A              Number of inquiries involving complex issues referred for further action                       5
       13B              Total dollar amount referred for further action                                           $2,655
       14               Number of complex issues resolved                                                            106
       15               Number of complex issues pending further action                                               46
       16               Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
       17A              Expected Medicare funds recovered attributable to the projects                                $0
       17B              Expected Medicaid funds recovered attributable to the projects                                $0
       17C              Actual savings to beneficiaries attributable to the projects                                $156
       17D              Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
       17A –17D         Total savings attributable to the projects                                                  $156




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                58
        Mississippi – Mississippi Department of Human Services, Division of Aging and Adult Services, Jackson
        In operation since: July 2000
                                                                                                           Total for 2012
                                            PERFORMANCE MEASURES
        1             Total number of active volunteers                                                               15
        2             Total number of volunteer training hours                                                        49
        3             Total number of volunteer work hours                                                           313
        4             Number of media airings                                                                          1
        5             Number of community outreach education events conducted                                         33
        6             Estimated number of people reached by community outreach education events                    3,656
        7             Number of group education sessions for beneficiaries                                            97
        8             Number of beneficiaries who attended group education sessions                                2,075
        9             Number of one-on-one counseling sessions held with or on behalf of a
                      beneficiary                                                                                    825
        10            Total number of simple inquiries received                                                       84
        11            Total number of simple inquiries resolved                                                       84
        12            Number of inquiries involving complex issues received                                            2
        13A           Number of inquiries involving complex issues referred for further action                         0
        13B           Total dollar amount referred for further action                                                 $0
        14            Number of complex issues resolved                                                                1
        15            Number of complex issues pending further action                                                 32
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A           Expected Medicare funds recovered attributable to the projects                                  $0
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                    $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                      $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    59
          Missouri – Care Connection for Aging Services, Warrensburg
         In operation since: July 1997
                                                                                                           Total for 2012
                                             PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              90
         2             Total number of volunteer training hours                                                      531
         3             Total number of volunteer work hours                                                          172
         4             Number of media airings                                                                       132
         5             Number of community outreach education events conducted                                       165
         6             Estimated number of people reached by community outreach education events                   8,656
         7             Number of group education sessions for beneficiaries                                          180
         8             Number of beneficiaries who attended group education sessions                               5,215
         9             Number of one-on-one counseling sessions held with or on behalf of a
                       beneficiary                                                                                     2
         10            Total number of simple inquiries received                                                   8,223
         11            Total number of simple inquiries resolved                                                   8,210
         12            Number of inquiries involving complex issues received                                           0
         13A           Number of inquiries involving complex issues referred for further action                        1
         13B           Total dollar amount referred for further action                                                $0
         14            Number of complex issues resolved                                                               1
         15            Number of complex issues pending further action                                                66
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    60
          Montana – Missoula Aging Services, Missoula
          In operation since: July 1999
                                                                                                           Total for 2012
                                                PERFORMANCE MEASURES
          1             Total number of active volunteers                                                             49
          2             Total number of volunteer training hours                                                     188
          3             Total number of volunteer work hours                                                         850
          4             Number of media airings                                                                      513
          5             Number of community outreach education events conducted                                       22
          6             Estimated number of people reached by community outreach education events                  1,557
          7             Number of group education sessions for beneficiaries                                         417
          8             Number of beneficiaries who attended group education sessions                             11,464
          9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             571
          10            Total number of simple inquiries received                                                    488
          11            Total number of simple inquiries resolved                                                    488
          12            Number of inquiries involving complex issues received                                         38
          13A           Number of inquiries involving complex issues referred for further action                      27
          13B           Total dollar amount referred for further action                                         $165,905
          14            Number of complex issues resolved                                                             36
          15            Number of complex issues pending further action                                               10
          16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $363
          17A           Expected Medicare funds recovered attributable to the projects                                $0
          17B           Expected Medicaid funds recovered attributable to the projects                                $0
          17C           Actual savings to beneficiaries attributable to the projects                             $12,660
          17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
          17A –17D      Total savings attributable to the projects                                               $12,660




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    61
          Nebraska – Nebraska Department of Health and Human Services, Lincoln
         In operation since: July 2000
                                                                                                           Total for 2012
                                                PERFORMANCE MEASURES
         1             Total number of active volunteers                                                             114
         2             Total number of volunteer training hours                                                      516
         3             Total number of volunteer work hours                                                        1,900
         4             Number of media airings                                                                     6,406
         5             Number of community outreach education events conducted                                       257
         6             Estimated number of people reached by community outreach education events                  21,319
         7             Number of group education sessions for beneficiaries                                          168
         8             Number of beneficiaries who attended group education sessions                               4,239
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            2,682
         10            Total number of simple inquiries received                                                     196
         11            Total number of simple inquiries resolved                                                     196
         12            Number of inquiries involving complex issues received                                          25
         13A           Number of inquiries involving complex issues referred for further action                       17
         13B           Total dollar amount referred for further action                                           $37,580
         14            Number of complex issues resolved                                                              29
         15            Number of complex issues pending further action                                                10
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    62
         Nevada – Office of the Nevada Attorney General, Las Vegas
         In operation since: July 1999
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              65
         2             Total number of volunteer training hours                                                      928
         3             Total number of volunteer work hours                                                        1,023
         4             Number of media airings                                                                    13,779
         5             Number of community outreach education events conducted                                       125
         6             Estimated number of people reached by community outreach education events                  10,184
         7             Number of group education sessions for beneficiaries                                           96
         8             Number of beneficiaries who attended group education sessions                               2,842
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              464
         10            Total number of simple inquiries received                                                     148
         11            Total number of simple inquiries resolved                                                     148
         12            Number of inquiries involving complex issues received                                          12
         13A           Number of inquiries involving complex issues referred for further action                        4
         13B           Total dollar amount referred for further action                                            $1,319
         14            Number of complex issues resolved                                                               1
         15            Number of complex issues pending further action                                                25
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    63
         New Hampshire – Health and Human Services – Bureau of Elderly and Adult Services, Concord
         In operation since: July 1997
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              13
         2             Total number of volunteer training hours                                                      257
         3             Total number of volunteer work hours                                                          178
         4             Number of media airings                                                                     2,517
         5             Number of community outreach education events conducted                                        97
         6             Estimated number of people reached by community outreach education events                   4,021
         7             Number of group education sessions for beneficiaries                                          156
         8             Number of beneficiaries who attended group education sessions                               2,894
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            2,345
         10            Total number of simple inquiries received                                                     538
         11            Total number of simple inquiries resolved                                                     538
         12            Number of inquiries involving complex issues received                                          16
         13A           Number of inquiries involving complex issues referred for further action                        6
         13B           Total dollar amount referred for further action                                            $3,000
         14            Number of complex issues resolved                                                              11
         15            Number of complex issues pending further action                                                 9
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    64
         New Jersey – Jewish Family & Vocational Services of Middlesex County, Inc., Milltown
         In operation since: July 2001
                                                                                                           Total for 2012
                                                 PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              26
         2             Total number of volunteer training hours                                                      354
         3             Total number of volunteer work hours                                                          445
         4             Number of media airings                                                                       934
         5             Number of community outreach education events conducted                                        55
         6             Estimated number of people reached by community outreach education events                   7,291
         7             Number of group education sessions for beneficiaries                                          356
         8             Number of beneficiaries who attended group education sessions                              16,378
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              235
         10            Total number of simple inquiries received                                                     463
         11            Total number of simple inquiries resolved                                                     461
         12            Number of inquiries involving complex issues received                                          86
         13A           Number of inquiries involving complex issues referred for further action                       23
         13B           Total dollar amount referred for further action                                           $27,390
         14            Number of complex issues resolved                                                              82
         15            Number of complex issues pending further action                                                15
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $929
         17A           Expected Medicare funds recovered attributable to the projects                               $282
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                 $668
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                   $950




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    65
         New Mexico – New Mexico Aging and Long-Term Services Department, Albuquerque
        In operation since: July 1999
                                                                                                           Total for 2012
                                              PERFORMANCE MEASURES
        1             Total number of active volunteers                                                               59
        2             Total number of volunteer training hours                                                     1,183
        3             Total number of volunteer work hours                                                         2,860
        4             Number of media airings                                                                      5,829
        5             Number of community outreach education events conducted                                        421
        6             Estimated number of people reached by community outreach education events                   41,852
        7             Number of group education sessions for beneficiaries                                            66
        8             Number of beneficiaries who attended group education sessions                                1,450
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             2,206
        10            Total number of simple inquiries received                                                      214
        11            Total number of simple inquiries resolved                                                      214
        12            Number of inquiries involving complex issues received                                           35
        13A           Number of inquiries involving complex issues referred for further action                         5
        13B           Total dollar amount referred for further action                                            $28,838
        14            Number of complex issues resolved                                                               21
        15            Number of complex issues pending further action                                                 13
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                    $9,195
        17A           Expected Medicare funds recovered attributable to the projects                                $215
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                $3,530
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                  $3,745




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    66
        New York – New York State Office of the Aging, Albany
        In operation since: July 1997
                                                                                                           Total for 2012
                                              PERFORMANCE MEASURES
        1             Total number of active volunteers                                                              429
        2             Total number of volunteer training hours                                                     1,847
        3             Total number of volunteer work hours                                                         1,617
        4             Number of media airings                                                                     38,061
        5             Number of community outreach education events conducted                                        519
        6             Estimated number of people reached by community outreach education events                   38,532
        7             Number of group education sessions for beneficiaries                                           684
        8             Number of beneficiaries who attended group education sessions                               20,999
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             4,111
        10            Total number of simple inquiries received                                                       63
        11            Total number of simple inquiries resolved                                                       62
        12            Number of inquiries involving complex issues received                                            0
        13A           Number of inquiries involving complex issues referred for further action                         0
        13B           Total dollar amount referred for further action                                                 $0
        14            Number of complex issues resolved                                                                0
        15            Number of complex issues pending further action                                                121
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A           Expected Medicare funds recovered attributable to the projects                                  $0
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                    $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                      $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    67
         North Carolina – Department of Insurance, Raleigh
        In operation since: July 2003
                                                                                                           Total for 2012
                                              PERFORMANCE MEASURES
        1             Total number of active volunteers                                                               86
        2             Total number of volunteer training hours                                                       164
        3             Total number of volunteer work hours                                                        31,698
        4             Number of media airings                                                                     38,290
        5             Number of community outreach education events conducted                                        231
        6             Estimated number of people reached by community outreach education events                  107,025
        7             Number of group education sessions for beneficiaries                                           541
        8             Number of beneficiaries who attended group education sessions                               22,922
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             5,778
        10            Total number of simple inquiries received                                                    4,037
        11            Total number of simple inquiries resolved                                                    4,036
        12            Number of inquiries involving complex issues received                                           62
        13A           Number of inquiries involving complex issues referred for further action                        46
        13B           Total dollar amount referred for further action                                            $90,741
        14            Number of complex issues resolved                                                               29
        15            Number of complex issues pending further action                                                 29
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A           Expected Medicare funds recovered attributable to the projects                                  $0
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                    $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                      $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    68
         North Dakota – North Dakota Center for Persons with Disabilities, Minot State University, Minot
        In operation since: July 2003
                                                                                                           Total for 2012
                                              PERFORMANCE MEASURES
        1             Total number of active volunteers                                                               44
        2             Total number of volunteer training hours                                                       101
        3             Total number of volunteer work hours                                                           483
        4             Number of media airings                                                                        104
        5             Number of community outreach education events conducted                                        128
        6             Estimated number of people reached by community outreach education events                    5,249
        7             Number of group education sessions for beneficiaries                                           103
        8             Number of beneficiaries who attended group education sessions                                1,753
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary               104
        10            Total number of simple inquiries received                                                       76
        11            Total number of simple inquiries resolved                                                       76
        12            Number of inquiries involving complex issues received                                            1
        13A           Number of inquiries involving complex issues referred for further action                         0
        13B           Total dollar amount referred for further action                                                $74
        14            Number of complex issues resolved                                                                1
        15            Number of complex issues pending further action                                                  0
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A           Expected Medicare funds recovered attributable to the projects                                  $0
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                   $74
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                     $74




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    69
         Ohio – Pro Seniors, Inc., Cincinnati
        In operation since: July 2002
                                                                                                           Total for 2012
                                              PERFORMANCE MEASURES
        1             Total number of active volunteers                                                               56
        2             Total number of volunteer training hours                                                       223
        3             Total number of volunteer work hours                                                           726
        4             Number of media airings                                                                      1,965
        5             Number of community outreach education events conducted                                        174
        6             Estimated number of people reached by community outreach education events                   15,498
        7             Number of group education sessions for beneficiaries                                           138
        8             Number of beneficiaries who attended group education sessions                                3,716
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary                63
        10            Total number of simple inquiries received                                                       44
        11            Total number of simple inquiries resolved                                                       44
        12            Number of inquiries involving complex issues received                                           12
        13A           Number of inquiries involving complex issues referred for further action                        10
        13B           Total dollar amount referred for further action                                             $6,102
        14            Number of complex issues resolved                                                                5
        15            Number of complex issues pending further action                                                 13
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A           Expected Medicare funds recovered attributable to the projects                             $11,522
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                    $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                 $11,522




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    70
         Oklahoma – State of Oklahoma Insurance Department, Oklahoma City
        In operation since: July 1999
                                                                                                           Total for 2012
                                              PERFORMANCE MEASURES
        1             Total number of active volunteers                                                                0
        2             Total number of volunteer training hours                                                         0
        3             Total number of volunteer work hours                                                             0
        4             Number of media airings                                                                      7,475
        5             Number of community outreach education events conducted                                         89
        6             Estimated number of people reached by community outreach education events                   11,324
        7             Number of group education sessions for beneficiaries                                           189
        8             Number of beneficiaries who attended group education sessions                                6,711
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary                91
        10            Total number of simple inquiries received                                                       77
        11            Total number of simple inquiries resolved                                                       75
        12            Number of inquiries involving complex issues received                                            6
        13A           Number of inquiries involving complex issues referred for further action                         0
        13B           Total dollar amount referred for further action                                                 $0
        14            Number of complex issues resolved                                                               15
        15            Number of complex issues pending further action                                                  5
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A           Expected Medicare funds recovered attributable to the projects                                  $0
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                    $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                      $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    71
         Oregon – Department of Human Services, Seniors and People with Disabilities, Salem
        In operation since: July 1999
                                                                                                           Total for 2012
                                              PERFORMANCE MEASURES
        1             Total number of active volunteers                                                              183
        2             Total number of volunteer training hours                                                     1,674
        3             Total number of volunteer work hours                                                         1,846
        4             Number of media airings                                                                         18
        5             Number of community outreach education events conducted                                         23
        6             Estimated number of people reached by community outreach education events                    2,519
        7             Number of group education sessions for beneficiaries                                            93
        8             Number of beneficiaries who attended group education sessions                                1,895
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             1,167
        10            Total number of simple inquiries received                                                    3,186
        11            Total number of simple inquiries resolved                                                    3,186
        12            Number of inquiries involving complex issues received                                           13
        13A           Number of inquiries involving complex issues referred for further action                         9
        13B           Total dollar amount referred for further action                                             $3,013
        14            Number of complex issues resolved                                                                7
        15            Number of complex issues pending further action                                                  5
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A           Expected Medicare funds recovered attributable to the projects                                  $0
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                    $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                      $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    72
         Pennsylvania – Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia
        In operation since: July 1997
                                                                                                           Total for 2012
                                              PERFORMANCE MEASURES
        1             Total number of active volunteers                                                               61
        2             Total number of volunteer training hours                                                       114
        3             Total number of volunteer work hours                                                         1,003
        4             Number of media airings                                                                         69
        5             Number of community outreach education events conducted                                         86
        6             Estimated number of people reached by community outreach education events                    8,641
        7             Number of group education sessions for beneficiaries                                           197
        8             Number of beneficiaries who attended group education sessions                                5,343
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             1,109
        10            Total number of simple inquiries received                                                      153
        11            Total number of simple inquiries resolved                                                      153
        12            Number of inquiries involving complex issues received                                           68
        13A           Number of inquiries involving complex issues referred for further action                        14
        13B           Total dollar amount referred for further action                                               $423
        14            Number of complex issues resolved                                                               51
        15            Number of complex issues pending further action                                                 39
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A           Expected Medicare funds recovered attributable to the projects                                  $0
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                    $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                      $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    73
         Puerto Rico – Office of the Ombudsman for the Elderly, Santurce
        In operation since: July 1999
                                                                                                           Total for 2012
                                              PERFORMANCE MEASURES
        1             Total number of active volunteers                                                               26
        2             Total number of volunteer training hours                                                       938
        3             Total number of volunteer work hours                                                         4,948
        4             Number of media airings                                                                         20
        5             Number of community outreach education events conducted                                      1,174
        6             Estimated number of people reached by community outreach education events                   39,618
        7             Number of group education sessions for beneficiaries                                             0
        8             Number of beneficiaries who attended group education sessions                                    0
        9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary             5,219
        10            Total number of simple inquiries received                                                        0
        11            Total number of simple inquiries resolved                                                        0
        12            Number of inquiries involving complex issues received                                            0
        13A           Number of inquiries involving complex issues referred for further action                         0
        13B           Total dollar amount referred for further action                                                 $0
        14            Number of complex issues resolved                                                                0
        15            Number of complex issues pending further action                                                  2
        16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                        $0
        17A           Expected Medicare funds recovered attributable to the projects                                  $0
        17B           Expected Medicaid funds recovered attributable to the projects                                  $0
        17C           Actual savings to beneficiaries attributable to the projects                                    $0
        17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                       $0
        17A –17D      Total savings attributable to the projects                                                      $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    74
          Rhode Island – Department of Elderly Affairs, Cranston
           In operation since: July 2006
                                                                                                            Total for 2012
                                                 PERFORMANCE MEASURES
           1             Total number of active volunteers                                                             50
           2             Total number of volunteer training hours                                                     222
           3             Total number of volunteer work hours                                                         880
           4             Number of media airings                                                                      181
           5             Number of community outreach education events conducted                                      131
           6             Estimated number of people reached by community outreach education events                  3,903
           7             Number of group education sessions for beneficiaries                                          77
           8             Number of beneficiaries who attended group education sessions                              1,738
           9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           2,592
           10            Total number of simple inquiries received                                                  3,757
           11            Total number of simple inquiries resolved                                                  3,757
           12            Number of inquiries involving complex issues received                                         14
           13A           Number of inquiries involving complex issues referred for further action                      10
           13B           Total dollar amount referred for further action                                           $5,055
           14            Number of complex issues resolved                                                             28
           15            Number of complex issues pending further action                                               32
           16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                      $0
           17A           Expected Medicare funds recovered attributable to the projects                                $0
           17B           Expected Medicaid funds recovered attributable to the projects                                $0
           17C           Actual savings to beneficiaries attributable to the projects                                  $0
           17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                     $0
           17A –17D      Total savings attributable to the projects                                                    $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                     75
          South Carolina – Lt. Governor’s Office on Aging, Columbia
         In operation since: July 2000
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              36
         2             Total number of volunteer training hours                                                      528
         3             Total number of volunteer work hours                                                          205
         4             Number of media airings                                                                     4,397
         5             Number of community outreach education events conducted                                       330
         6             Estimated number of people reached by community outreach education events                  20,982
         7             Number of group education sessions for beneficiaries                                          105
         8             Number of beneficiaries who attended group education sessions                               2,882
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary           10,151
         10            Total number of simple inquiries received                                                   2,459
         11            Total number of simple inquiries resolved                                                   2,373
         12            Number of inquiries involving complex issues received                                          47
         13A           Number of inquiries involving complex issues referred for further action                       17
         13B           Total dollar amount referred for further action                                              $270
         14            Number of complex issues resolved                                                              12
         15            Number of complex issues pending further action                                                70
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    76
          South Dakota – East River Legal Services, Sioux Falls
         In operation since: July 2000
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              28
         2             Total number of volunteer training hours                                                       33
         3             Total number of volunteer work hours                                                           73
         4             Number of media airings                                                                        26
         5             Number of community outreach education events conducted                                         6
         6             Estimated number of people reached by community outreach education events                     319
         7             Number of group education sessions for beneficiaries                                           13
         8             Number of beneficiaries who attended group education sessions                                 469
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              193
         10            Total number of simple inquiries received                                                      83
         11            Total number of simple inquiries resolved                                                      83
         12            Number of inquiries involving complex issues received                                          13
         13A           Number of inquiries involving complex issues referred for further action                        0
         13B           Total dollar amount referred for further action                                           $20,703
         14            Number of complex issues resolved                                                              15
         15            Number of complex issues pending further action                                                 0
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $18,973
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    77
          Tennessee – Upper Cumberland Development District, Cookeville
         In operation since: July 2001
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                             125
         2             Total number of volunteer training hours                                                    1,507
         3             Total number of volunteer work hours                                                        1,817
         4             Number of media airings                                                                     3,710
         5             Number of community outreach education events conducted                                       579
         6             Estimated number of people reached by community outreach education events                  79,250
         7             Number of group education sessions for beneficiaries                                          214
         8             Number of beneficiaries who attended group education sessions                               9,998
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            2,778
         10            Total number of simple inquiries received                                                      95
         11            Total number of simple inquiries resolved                                                      95
         12            Number of inquiries involving complex issues received                                          55
         13A           Number of inquiries involving complex issues referred for further action                       25
         13B           Total dollar amount referred for further action                                            $6,152
         14            Number of complex issues resolved                                                              36
         15            Number of complex issues pending further action                                                62
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                               $1,934
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                 $1,934




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    78
          Texas – Better Business Bureau Education, Houston
         In operation since: July 2002
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                             186
         2             Total number of volunteer training hours                                                    1,005
         3             Total number of volunteer work hours                                                          593
         4             Number of media airings                                                                     3,632
         5             Number of community outreach education events conducted                                       124
         6             Estimated number of people reached by community outreach education events                  10,142
         7             Number of group education sessions for beneficiaries                                          258
         8             Number of beneficiaries who attended group education sessions                               8,135
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              441
         10            Total number of simple inquiries received                                                     484
         11            Total number of simple inquiries resolved                                                     469
         12            Number of inquiries involving complex issues received                                          55
         13A           Number of inquiries involving complex issues referred for further action                       45
         13B           Total dollar amount referred for further action                                           $93,890
         14            Number of complex issues resolved                                                              45
         15            Number of complex issues pending further action                                               135
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    79
          Utah – Utah Division of Aging and Adult Services, Salt Lake City
         In operation since: June 2009
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                             182
         2             Total number of volunteer training hours                                                      854
         3             Total number of volunteer work hours                                                        5,939
         4             Number of media airings                                                                       135
         5             Number of community outreach education events conducted                                       176
         6             Estimated number of people reached by community outreach education events                  11,401
         7             Number of group education sessions for beneficiaries                                          300
         8             Number of beneficiaries who attended group education sessions                               6,532
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            6,335
         10            Total number of simple inquiries received                                                   7,675
         11            Total number of simple inquiries resolved                                                   7,675
         12            Number of inquiries involving complex issues received                                          38
         13A           Number of inquiries involving complex issues referred for further action                       35
         13B           Total dollar amount referred for further action                                          $125,610
         14            Number of complex issues resolved                                                              39
         15            Number of complex issues pending further action                                                 3
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $11,140
         17A           Expected Medicare funds recovered attributable to the projects                             $4,665
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                 $314
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                 $4,980




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    80
          Vermont – Community of Vermont Elders, Berlin
         In operation since: July 2003
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              47
         2             Total number of volunteer training hours                                                      162
         3             Total number of volunteer work hours                                                          957
         4             Number of media airings                                                                       529
         5             Number of community outreach education events conducted                                        19
         6             Estimated number of people reached by community outreach education events                     813
         7             Number of group education sessions for beneficiaries                                          102
         8             Number of beneficiaries who attended group education sessions                               2,501
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary                0
         10            Total number of simple inquiries received                                                      18
         11            Total number of simple inquiries resolved                                                      18
         12            Number of inquiries involving complex issues received                                           5
         13A           Number of inquiries involving complex issues referred for further action                        1
         13B           Total dollar amount referred for further action                                             $220
         14            Number of complex issues resolved                                                               9
         15            Number of complex issues pending further action                                                 2
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    81
          Virginia – Virginia Association of Area Agencies on Aging, Richmond
         In operation since: July 1999
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              36
         2             Total number of volunteer training hours                                                      341
         3             Total number of volunteer work hours                                                          360
         4             Number of media airings                                                                     2,838
         5             Number of community outreach education events conducted                                       268
         6             Estimated number of people reached by community outreach education events                  18,915
         7             Number of group education sessions for beneficiaries                                          291
         8             Number of beneficiaries who attended group education sessions                               8,209
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              612
         10            Total number of simple inquiries received                                                     798
         11            Total number of simple inquiries resolved                                                     798
         12            Number of inquiries involving complex issues received                                          31
         13A           Number of inquiries involving complex issues referred for further action                       47
         13B           Total dollar amount referred for further action                                            $4,349
         14            Number of complex issues resolved                                                              17
         15            Number of complex issues pending further action                                                68
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    82
          Virgin Islands – Department of Human Services, Senior Citizens Affairs, St. Croix
         In operation since: July 2005
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              29
         2             Total number of volunteer training hours                                                      296
         3             Total number of volunteer work hours                                                          528
         4             Number of media airings                                                                        89
         5             Number of community outreach education events conducted                                        29
         6             Estimated number of people reached by community outreach education events                   2,404
         7             Number of group education sessions for beneficiaries                                           38
         8             Number of beneficiaries who attended group education sessions                                 485
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              115
         10            Total number of simple inquiries received                                                      17
         11            Total number of simple inquiries resolved                                                      17
         12            Number of inquiries involving complex issues received                                           0
         13A           Number of inquiries involving complex issues referred for further action                        0
         13B           Total dollar amount referred for further action                                                $0
         14            Number of complex issues resolved                                                               0
         15            Number of complex issues pending further action                                                 3
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    83
          Washington – Office of the Insurance Commissioner, Tumwater
         In operation since: July 1999
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              13
         2             Total number of volunteer training hours                                                      142
         3             Total number of volunteer work hours                                                          698
         4             Number of media airings                                                                         4
         5             Number of community outreach education events conducted                                       198
         6             Estimated number of people reached by community outreach education events                  22,412
         7             Number of group education sessions for beneficiaries                                        1,245
         8             Number of beneficiaries who attended group education sessions                              19,479
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            3,272
         10            Total number of simple inquiries received                                                   7,537
         11            Total number of simple inquiries resolved                                                   7,525
         12            Number of inquiries involving complex issues received                                         575
         13A           Number of inquiries involving complex issues referred for further action                       10
         13B           Total dollar amount referred for further action                                              $419
         14            Number of complex issues resolved                                                             328
         15            Number of complex issues pending further action                                               323
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    84
          West Virginia – AARP Foundation, Charleston
         In operation since: July 2003
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              66
         2             Total number of volunteer training hours                                                        5
         3             Total number of volunteer work hours                                                          995
         4             Number of media airings                                                                       337
         5             Number of community outreach education events conducted                                        34
         6             Estimated number of people reached by community outreach education events                   5,880
         7             Number of group education sessions for beneficiaries                                           40
         8             Number of beneficiaries who attended group education sessions                              24,646
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              504
         10            Total number of simple inquiries received                                                   2,560
         11            Total number of simple inquiries resolved                                                   2,560
         12            Number of inquiries involving complex issues received                                           9
         13A           Number of inquiries involving complex issues referred for further action                        1
         13B           Total dollar amount referred for further action                                              $980
         14            Number of complex issues resolved                                                               0
         15            Number of complex issues pending further action                                               141
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    85
          Wisconsin – Coalition of Wisconsin Aging Groups, Madison
         In operation since: July 1997
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                             107
         2             Total number of volunteer training hours                                                      295
         3             Total number of volunteer work hours                                                          873
         4             Number of media airings                                                                     1,187
         5             Number of community outreach education events conducted                                        75
         6             Estimated number of people reached by community outreach education events                   5,804
         7             Number of group education sessions for beneficiaries                                          152
         8             Number of beneficiaries who attended group education sessions                               3,721
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary              193
         10            Total number of simple inquiries received                                                   1,812
         11            Total number of simple inquiries resolved                                                   1,809
         12            Number of inquiries involving complex issues received                                          24
         13A           Number of inquiries involving complex issues referred for further action                       14
         13B           Total dollar amount referred for further action                                           $16,533
         14            Number of complex issues resolved                                                              26
         15            Number of complex issues pending further action                                                16
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                   $7,891
         17A           Expected Medicare funds recovered attributable to the projects                               $203
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                   $203




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    86
          Wyoming – Senior Citizens, Inc., Riverton
         In operation since: July 2000
                                                                                                           Total for 2012
                                               PERFORMANCE MEASURES
         1             Total number of active volunteers                                                              32
         2             Total number of volunteer training hours                                                      673
         3             Total number of volunteer work hours                                                           85
         4             Number of media airings                                                                     8,825
         5             Number of community outreach education events conducted                                        52
         6             Estimated number of people reached by community outreach education events                   8,358
         7             Number of group education sessions for beneficiaries                                           18
         8             Number of beneficiaries who attended group education sessions                                 471
         9             Number of one-on-one counseling sessions held with or on behalf of a beneficiary            4,143
         10            Total number of simple inquiries received                                                   3,177
         11            Total number of simple inquiries resolved                                                   3,177
         12            Number of inquiries involving complex issues received                                          10
         13A           Number of inquiries involving complex issues referred for further action                        3
         13B           Total dollar amount referred for further action                                            $2,213
         14            Number of complex issues resolved                                                               7
         15            Number of complex issues pending further action                                                 5
         16            Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                       $0
         17A           Expected Medicare funds recovered attributable to the projects                                 $0
         17B           Expected Medicaid funds recovered attributable to the projects                                 $0
         17C           Actual savings to beneficiaries attributable to the projects                                   $0
         17D           Other savings attributable to the projects (e.g., Supplemental Insurance)                      $0
         17A –17D      Total savings attributable to the projects                                                     $0




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report (OEI-02-13-00170)                    87
                APPENDIX E
                Definitions of Performance Measures

                The following list includes the definitions of the performance measures for
                2012.




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report
(OEI-02-13-00170)                                                                        88
                                              Definitions


ACTIVE VOLUNTEERS	                      Individuals who donate their time to assist with
                                        implementing the Senior Medicare Patrol (SMP) project.
                                        Volunteers are trained to perform project work, which is
                                        conducted during their personal time. They are not paid by
                                        anyone during the time they perform this work.

VOLUNTEER TRAINING 	                    Formal gatherings (e.g., in person, by teleconference, or by
                                        Web conference) sponsored for the purpose of teaching or
                                        retraining SMP project staff and/or volunteers who in turn
                                        will educate individuals to identify and report health care
                                        fraud, waste, and abuse. Training reportable to the Office
                                        of Inspector General does not include informal training
                                        mechanisms such as email updates or newsletters.

MEDIA AIRINGS 	                         Any individual airing or publishing of media (e.g., print,
                                        radio, television, or electronic) to educate about
                                        Medicare/Medicaid fraud and the services of the
                                        SMP project.

COMMUNITY OUTREACH/ 	                  An outreach and/or education activity conducted by
EDUCATION EVENT	                       SMP project staff or volunteers that is not a group education
                                       session, one-on-one session, or media airing. The purpose
                                       of such an event is to educate the public about health care
                                       fraud prevention, detection, and reporting, and the
                                       availability of project services in their area.

GROUP EDUCATION 	                       Formal presentations led by SMP project staff or volunteers
SESSIONS 	                              to educate beneficiaries, family members, caregivers, and
                                        others on detecting fraud, waste, and abuse in the health
                                        care system and services offered by the project.




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report
(OEI-02-13-00170)                                                                          89
ONE-ON-ONE COUNSELING 	                 A meeting between an SMP project representative and
SESSION 	                               an individual beneficiary and/or his or her family or
                                        caregiver for the purpose of discussing or gathering
                                        information about potential health care fraud, error, or
                                        abuse. One-on-one counseling sessions may include
                                        beneficiary counseling, information gathering, or
                                        information sharing.

SIMPLE INQUIRY 	                        A brief contact initiated by a consumer and/or beneficiary
                                        that is resolved with minimal time and research or review.
                                        Simple inquiries typically do not require individual
                                        demographic or private personal information, such as a
                                        Medicare number or information about a medical condition.

COMPLEX ISSUES 	                        An inquiry that generally requires the SMP project staff or
                                        volunteer to obtain beneficiary personal identifying
                                        information and detailed information related to the issue,
                                        complaint, or allegation in order to conduct further
                                        investigation or referral.

COMPLEX ISSUES                          A complex issue referred to a Medicare contractor,
REFERRED FOR FURTHER                    an investigative agency, or other appropriate organization.
ACTION

COMPLEX ISSUES	                         A complex issue successfully resolved by an SMP project,
RESOLVED	                               a Medicare contractor, an investigative agency, or another
                                        appropriate organization.

COMPLEX ISSUES PENDING 	 All complex issues—irrespective of when they were
FURTHER ACTION 	         received—that are still being investigated by either the
                         SMP project or an entity to which the case was referred.

COST AVOIDANCE	                         Health care expenditures for which the Government, a
                                        beneficiary, or other entity (e.g., secondary health insurer)
                                        was relieved of responsibility for payment as a result of the
                                        SMP project.




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report
(OEI-02-13-00170)                                                                          90
EXPECTED MEDICARE	                      This amount represents actual and expected recoveries
FUNDS RECOVERED	                        from criminal actions, settlements, civil judgments, or
                                        overpayments that resulted from the referral. This applies
                                        to the amount of money that was ordered or agreed upon to
                                        be returned to Medicare, and may not reflect actual
                                        collections. Recoveries may also involve cases that include
                                        participation by a Medicare contractor or a law
                                        enforcement agency.

EXPECTED MEDICAID	                      This amount represents actual and expected recoveries
FUNDS RECOVERED 	                       from criminal actions, settlements, civil judgments, or
                                        overpayments that resulted from the referral. This applies
                                        to the amount of money that was ordered or agreed upon to
                                        be returned to Medicaid, and may not reflect actual
                                        collections. Recoveries may also involve cases that include
                                        participation by a Medicaid Fraud Control Unit or a law
                                        enforcement agency.

SAVINGS TO THE 	                        Money saved by or recouped to an individual as a result of
BENEFICIARY 	                           the SMP project (e.g., copayments, deductibles, or any
                                        other out-of-pocket expenses).

OTHER SAVINGS	                          Money saved or recouped to an entity other than Medicare,
                                        Medicaid, or beneficiaries (e.g., secondary health
                                        insurance), as a result of the SMP project.




Performance Data for the Senior Medicare Patrol Projects: July 2013 Performance Report
(OEI-02-13-00170)                                                                        91
